<html>
<title> - THE DREAM ACT</title>
<body><pre>[Senate Hearing 112-941]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 112-941

                             THE DREAM ACT

=======================================================================

                                 HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON IMMIGRATION, REFUGEES
                          AND BORDER SECURITY

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 28, 2011

                               __________

                          Serial No. J-112-30

                               __________

         Printed for the use of the Committee on the Judiciary
         
         
  [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
  
  
                               ___________
                               
                               
                         U.S. GOVERNMENT PUBLISHING OFFICE
20-267 PDF                       WASHINGTON : 2016                         
       
________________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="d2b5a2bd92b1a7a1a6bab7bea2fcb1bdbffc">[email&#160;protected]</a>  
                      
                      
                     
                      
                      COMMITTEE ON THE JUDICIARY

                  PATRICK J. LEAHY, Vermont, Chairman
HERB KOHL, Wisconsin                 CHUCK GRASSLEY, Iowa, Ranking 
DIANNE FEINSTEIN, California             Member
CHUCK SCHUMER, New York              ORRIN G. HATCH, Utah
DICK DURBIN, Illinois                JON KYL, Arizona
SHELDON WHITEHOUSE, Rhode Island     JEFF SESSIONS, Alabama
AMY KLOBUCHAR, Minnesota             LINDSEY GRAHAM, South Carolina
AL FRANKEN, Minnesota                JOHN CORNYN, Texas
CHRISTOPHER A. COONS, Delaware       MICHAEL S. LEE, Utah
RICHARD BLUMENTHAL, Connecticut      TOM COBURN, Oklahoma
            Bruce A. Cohen, Chief Counsel and Staff Director
        Kolan Davis, Republican Chief Counsel and Staff Director
                                 
                                 
                                 ------                                

       Subcommittee on Immigration, Refugees and Border Security

                   CHUCK SCHUMER, New York, Chairman
PATRICK J. LEAHY, Vermont            JOHN CORNYN, Texas, Ranking Member
DIANNE FEINSTEIN, California         CHUCK GRASSLEY, Iowa
DICK DURBIN, Illinois                ORRIN G. HATCH, Utah
AL FRANKEN, Minnesota                JON KYL, Arizona
RICHARD BLUMENTHAL, Connecticut      JEFF SESSIONS, Alabama
               Stephanie Martz, Democratic Chief Counsel
               Matthew Johnson, Republican Chief Counsel
                            
                            
                            C O N T E N T S

                              ----------                              

                       JUNE 28, 2011, 10:01 A.M.

                    STATEMENTS OF COMMITTEE MEMBERS

                                                                   Page

Cornyn, Hon. John, a U.S. Senator from the State of Texas........     3
Durbin, Hon. Dick, a U.S. Senator from the State of Illinois.....     1
    prepared statement...........................................   100
Feinstein, Hon. Dianne, a U.S. Senator from the State of 
  California.....................................................     6
Grassley, Hon. Chuck, a U.S. Senator from the State of Iowa......     7
    prepared statement...........................................    96
Leahy, Hon. Patrick J., a U.S. Senator from the State of Vermont.    16
    prepared statement...........................................    95
Schumer, Hon. Chuck, a U.S. Senator from the State of New York...    10

                               WITNESSES

Witness List.....................................................    45
Camarota, Steven A., Ph.D., Director of Research, Center for 
  Immigration Studies, Washington, DC............................    38
    prepared statement...........................................    88
Duncan, Hon. Arne, Secretary, U.S. Department of Education, 
  Washington, DC.................................................     8
    prepared statement...........................................    60
Kaso, Ola, Warren, Michigan......................................    32
    prepared statement...........................................    72
Napolitano, Hon. Janet, Secretary, U.S. Department of Homeland 
  Security, Washington, DC.......................................    13
    prepared statement...........................................    46
Stanley, Clifford L., Ph.D., Under Secretary of Defense for 
  Personnel and Readiness, U.S. Department of Defense, 
  Washington, DC.................................................    15
    prepared statement...........................................    66
Stock, Margaret D., Lieutenant Colonel, USAR, Retired, Anchorage, 
  Alaska.........................................................    34
    prepared statement...........................................    78

                               QUESTIONS

Questions submitted to Steven A. Camarota by Senator Grassley....   108
Questions submitted to Hon. Arne Duncan by Senator Grassley......   106
Questions submitted to Hon. Janet Napolitano by Senator Grassley.   103
Questions submitted to Clifford L. Stanley by Senator Grassley...   107

                                ANSWERS

Responses of Steven A. Camarota to questions submitted by
  Senator Grassley...............................................   122
Responses of Hon. Arne Duncan to questions submitted by
  Senator Grassley...............................................   118
Responses of Hon. Janet Napolitano to questions submitted by
  Senator Grassley...............................................   109
[Note: At the time of printing, the Committee had not received 
  responses from Clifford L. Stanley.]

                MISCELLANEOUS SUBMISSIONS FOR THE RECORD

American Civil Liberties Union (ACLU), Laura W. Murphy, Director, 
  Washington Legislative Office, and Joanne Lin, Legislative 
  Counsel, statement.............................................   125
Federation for American Immigration Reform (FAIR), Dan Stein, 
  President, statement...........................................   129

 
                             THE DREAM ACT

                              ----------                              


                         TUESDAY, JUNE 28, 2011

                      United States Senate,
              Subcommittee on Immigration, Refugees
                               and Border Security,
                                Committee on the Judiciary,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 10:01 a.m., in 
Room SH-216, Hart Senate Office Building, Hon. Dick Durbin,
presiding.
    Present: Senators Durbin, Schumer, Leahy, Feinstein, 
Franken, Blumenthal, Cornyn, and Grassley.

             OPENING STATEMENT OF HON. DICK DURBIN,
           A U.S. SENATOR FROM THE STATE OF ILLINOIS

    Senator Durbin. Good morning. This hearing of the 
Subcommittee on Immigration, Refugees and Border Security will 
come to order. Today's hearing is on the DREAM Act, legislation 
that would allow a select group of immigrant students to earn 
legal status.
    Before I begin, I want to especially thank the Chairman of 
the full Committee, Senator Leahy, and Senator Schumer, who 
chairs the Immigration Subcommittee and who will join us 
shortly, for their long-standing support of this legislation 
and for giving me the opportunity to hold the first-ever Senate 
hearing on this bill.
    This bill has been introduced and considered for almost 10 
years. The first hearing was scheduled for September 12, 2001, 
and was canceled for obvious reasons. The bill has gone through 
numerous markups, a lot of floor debate, and been considered in 
various forms, but this is the first official Committee hearing 
on the bill.
    Thousands of immigrant students in the United States were 
brought here as children. It was not their decision to come to 
this country, but they grew up here pledging allegiance to our 
flag and singing our national anthem. They are Americans 
through and through.
    The DREAM Act would give these young people a chance to 
earn legal status if they have good moral character and go to 
college or serve in the military.
    The DREAM Act would make America a stronger country by 
giving these talented immigrants the chance to fulfill their 
potential.
    The young people who would be eligible for the DREAM Act 
call themselves ``Dreamers,'' and over the years I have met a 
lot of them, and hundreds of them are here today. I want to 
introduce a few of them.
    The first one is Tereza Lee. Tereza, would you please stand 
up?
    Ten years ago, I was contacted by Ann Monaco, a teacher at 
the Merit School of Music in Chicago. One of her students--
Tereza--was an extraordinary musical talent who had played as a 
soloist with the Chicago Symphony Orchestra. She had been 
accepted at several of the country's most prestigious music 
schools: the Juilliard School of Music and the Manhattan School 
of Music. As they were filling out the application form for her 
to go to school, the question came up about her nationality. 
Her parents had brought Tereza to the United States when she 
was 2 years old; they had never filed any papers, and she was 
undocumented.
    So we contacted the INS, and they told us that she had an 
option: Tereza would have to leave the United States for 10 
years. And that is when I started to work on the DREAM Act.
    Let me tell you, the story has a very happy ending. Tereza 
went on to obtain her B.A. and Masters from the Manhattan 
School of Music. In 2009, she played her debut at Carnegie 
Hall. Today she is pursuing her doctorate at the Manhattan 
School of Music.
    Tereza, you got me started. Thank you for being here.
    [Applause.]
    Senator Durbin. No politician ever wants to stop the 
applause, but we have Committee rules, and we ask you to please 
hold your reactions, positive or negative, to yourself. Thank 
you.
    Nelson and Jhon Magdaleno, would you please stand?
    Nelson and Jhon were brought to this country from 
Venezuela. Nelson was 11, Jhon was 9. In high school Jhon was 
the fourth highest ranking officer and commander of the Air 
Honor Society in Junior ROTC. Nelson and Jhon are now honor 
students at Georgia Tech University, one of the best 
engineering schools in America. Nelson is a computer 
engineering major, and Jhon is a biomedical engineering major. 
Thank you for being here.
    Tolu Olabunmi, please stand. Brought to the United States 
from Nigeria as a child, in 2002 she graduated from a 
prestigious university in Virginia with a degree in chemical 
engineering. It has been 9 years since she graduated. She has 
yet to work a day as a chemical engineer because she is 
undocumented. She has been waiting for Durbin to pass the DREAM 
Act for 9 years, and she is now over the age of 30, and that is 
why the eligible age in our law that we have before us today is 
35, because she should not be held responsible for the fact 
that we have not done what we need to do in passing the law. 
Tolu, thank you for being here.
    Monji Dolon, please stand up if you are here, Monji. His 
parents brought him here from Bangladesh in 1991 when he was 5 
years old. In 2008, he graduated from the University of North 
Carolina at Chapel Hill. Now he is being courted by the 
technology industry. He has even been offered a job as a lead 
engineer for a start-up in Silicon Valley. He cannot accept the 
job offers he has received because he is undocumented. Thank 
you.
    Benita Veliz. Benita was brought here in 1993 at the age of 
8. She graduated as valedictorian of her high school class at 
the age of 16, graduated from the honors program at St. Mary's 
University in Texas, with a double major in biology and 
sociology. Thank you, Benita, for being here.
    Angelica Hernandez, please stand. Thank you, Angelica. 
Brought here from Mexico when she was 9 years old, in high 
school she served in the Junior ROTC and was president of the 
National Honor Society. This spring she graduated from Arizona 
State University as the Outstanding Senior in the Mechanical 
Engineering Department. Angelica, thank you.
    There are many others here today who I would like to 
introduce, but I do not have the time to do it. Let me ask 
everyone here today who is a DREAM Act student to stand and be 
recognized. Thank you so much for being here, for the sacrifice 
you made to come. You can be seated.
    When I look around this room, I see America's future--our 
doctors, our teachers, our nurses, our engineers, our 
scientists, our soldiers, our Congressmen, our Senators, and 
maybe our President.
    I ask my colleagues to consider the plight of these young 
people who find themselves in a legal twilight zone through no 
fault of their own. They are willing to serve the country they 
love. All they are asking for is a chance.
    Opponents of this bill say they sympathize with DREAM Act 
students. But they criticize the bill and offer no alternative. 
Do they want these young people to leave, to go back to 
countries where they may never have lived or do not remember? 
Or to continue living in the shadows and in doubt about their 
future?
    These Dreamers would happily go to the back of any line and 
wait their turn for citizenship, but there is no line for them 
to get into.
    I urge my colleagues to support the DREAM Act. It is, I 
think, one of the most compelling human rights issues of our 
time in America.
    [The prepared statement of Senator Durbin appears as a 
submission for the record.]
    I would like to recognize Senator Cornyn, the Ranking 
Member of the Subcommittee.

             OPENING STATEMENT OF HON. JOHN CORNYN,
             A U.S. SENATOR FROM THE STATE OF TEXAS

    Senator Cornyn. Thank you, Mr. Chairman. I have anticipated 
today's hearing with decidedly mixed emotions, on the one hand 
with compassion and sympathy for these young students who so 
earnestly want a brighter future for themselves; but on the 
other hand, with a sense of frustration at the way this issue 
has been wielded as a political weapon.
    You know I have supported a version of the DREAM Act for 
many years, and I know you have been a champion of this. I 
admire your typical persistence, and I know you care deeply 
about these young people whose parents were illegal immigrants, 
or are, and who brought them to the country in violation of our 
law, but who themselves have no culpability for being here in 
violation of our immigration laws.
    It has been too long--since 2007, in fact--when Senator 
Reid, the Majority Leader, brought an immigration reform bill 
to the Senate floor. As a matter of fact, I remember reading in 
President Bush's book, ``Decision Points,'' he said Senator 
Teddy Kennedy called him and asked him to call Senator Reid and 
ask him to keep the Senate in session over the weekend in 2007 
so that the Senate could finish its work on that bill in 2007. 
But Senator Reid declined to do so, and as you know, that bill 
was pulled.
    I had no reason to doubt also the President of the United 
States' promise to make immigration reform a priority. As a 
matter of fact, he said he would do so within his first year in 
office. But we know now that he did not keep that promise, and 
I have been disappointed by the President's failure to lead on 
immigration reform.
    I know I am not alone. Having pushed controversial 
legislation through the United States Senate when Democrats 
controlled both the Congress and the White House--the stimulus 
package, the health care bill, the Dodd-Frank bill--there is no 
reason why the President of the United States could not have 
delivered on his immigration reform promise during his first 2 
years as President if it was really the priority that he 
claimed.
    I am also disappointed that the Senate Majority Leader has 
refused to place immigration reform on the Senate agenda since 
2007 but, nevertheless, last December used once again the DREAM 
Act as a political football in a political stunt. He refused to 
allow any amendments to the bill when it was brought to the 
floor that might have addressed bipartisan concerns about it 
and would have, in fact, improved it, in my view. And he 
refused to allow enough floor time for the Senate to debate the 
bill. It was hardly a recipe for success. Instead, it had all 
of the hallmarks of a cynical effort to use the hopes and 
dreams of these young people as a political wedge in the run-up 
to the 2012 election. I believe we can and that we should do 
better.
    Of course, Mr. Chairman, we all have compassion for these 
young people, many of whom live in my State, the State of 
Texas. We know how the broken immigration system has failed 
them, and we know how Washington's failure to deliver credible 
immigration reform has failed the country.
    It is important, though, to get the details right, and that 
is why the process by which this bill is considered in this 
Judiciary Committee and on the floor is very important. 
Unfortunately, the version of the DREAM Act we have got before 
us has several well-known problems that have never been 
satisfactorily addressed.
    Under this version of the DREAM Act, a 35-year-old illegal 
immigrant with only 2 years of post-high school education would 
be eligible for a green card, regardless of whether they ever 
earn a degree. In fact, the bill allows the Secretary of the 
Department of Homeland Security to waive the educational 
requirement entirely so that all that is required for a pathway 
to citizenship is a GED.
    Under this version of the DREAM Act, a 35-year-old illegal 
immigrant who has been convicted of two misdemeanors would be 
eligible for a green card. And let us remind ourselves that 
many misdemeanors are not minor offenses. In many States, they 
include driving while under the influence of alcohol, drug 
possession, burglary, theft, assault, and many other serious 
crimes. In New York, sexual assault of a minor in the third 
degree is a misdemeanor. Someone with two convictions for any 
of these crimes could eventually be eligible for a path to 
American citizenship under this legislation, and that does not 
include people who are actually charged with felonies but who 
later pled guilty to a reduced charge of a misdemeanor.
    This version of the DREAM Act also has, in my opinion, very 
weak protections against fraud. As we saw in 1986, anytime we 
expand eligibility for an immigration benefit, we create a 
whole new opportunity for fraud if we are not careful. Yet this 
bill actually protects the confidentiality of the DREAM Act 
application even if it contains false information. And this 
bill does not acknowledge the impact of chain migration by 
hundreds of thousands of family members in a fragile economy 
that we have now.
    Mr. Chairman, these concerns, as you know, are not new. I 
have raised them time and time again over the years. But I want 
to make clear that the biggest obstacle to the passage of the 
DREAM Act is not the specific issues I have mentioned. It is 
the failure of the Federal Government to keep its promise when 
it comes to immigration reform. Moreover, were we to pass this 
bill as a stand-alone bill without addressing the rest of our 
broken immigration system, I believe it is far less likely that 
we would ever get to the other issues in our broken system, 
this being the most sympathetic of any of those.
    The issue we are addressing today is, in fact, the engine 
that could help pull the train for credible immigration reform. 
Once it leaves the station, what are we to tell our 
constituents who care deeply about the rest of our broken 
immigration system?
    But I think it is important also to recall and remind 
ourselves that America is a welcoming Nation to immigrants who 
play by the rules and do it the right way. Last year more than 
600,000 people became naturalized U.S. citizens. I think that 
is something we should be proud of. Nearly 50,000 of these new 
Americans are Texans, and on Memorial Day this last year, I had 
the honor of attending a ceremony where young men and women who 
have green cards were the beneficiaries of an expedited path to 
citizenship as a result of legislation that I cosponsored with 
Senator Teddy Kennedy. It was one of the first bills that I 
cosponsored in the Senate.
    The American people have been compassionate and generous to 
illegal immigrants and their families. In 1986, President 
Reagan signed an amnesty for about 3 million people. It was 
supposed to be the last mass legalization that America would 
ever need because the trade-off was increased and enhanced 
enforcement. But the enforcement never happened.
    So the problem is not that America is an unwelcoming Nation 
or that America is not a compassionate Nation or that America 
will not continue to be welcoming and compassionate if we 
handle this issue correctly. The problem is that the Federal 
Government is still not doing what it promised to do in 1986: 
to secure our borders, to enforce our immigration laws, 
especially at the workplace, adequately, and encourage large 
numbers of people from systematically--discourage large numbers 
of people from systematically violating the law of the land.
    I believe sincerely that our policy should be pro-legal 
immigration and anti-illegal immigration. This bill, sadly, 
does nothing to fix our broken immigration system. It is a 
Band-aid. And maybe worse, it will provide an incentive for 
future illegal immigration. This bill does nothing for border 
security, workplace enforcement, visa overstays that account 
for about 40 percent of illegal immigration in this country. In 
other words, it does nothing to reduce the likelihood of 
further illegal immigration.
    What parent would not be tempted to immigrate illegally on 
the hope that if not they but maybe their children would be 
given the gift of American citizenship? And after these 
children are citizens, under current law how many millions of 
their immediate family members would eventually become eligible 
for citizenship?
    I think millions of Americans would support the DREAM Act, 
Mr. Chairman, if they could get their questions answered, like: 
Will this bill solve the problem of our broken immigration 
system or will it make it worse by incentivizing illegal entry? 
What is the impact on sky-high unemployment rates for current 
citizens and legal residents? In fact, the unemployment rate 
for Hispanics in America is roughly 2 percentage points higher 
than for the general population. And, finally, how will we pay 
for this when 43 cents out of every dollar the Federal 
Government currently spends is borrowed money and we have a 
$14.3 trillion national debt?
    What message are we sending to those on the other side of 
the borders who are thinking about entering the country 
illegally with a minor child? If we pass this bill, will we be 
back here in 5 years, 10 years, 20 years, with the same 
concerns that these young people are bringing to us today? In 
other words, is this the kind of dream that will reoccur 
indefinitely?
    Respectfully, Mr. Chairman, these are some of the questions 
that I have today and some of the questions I will have for the 
panelists. Thank you very much.
    Senator Durbin. Senator Feinstein.

          OPENING STATEMENT OF HON. DIANNE FEINSTEIN,
          A U.S. SENATOR FROM THE STATE OF CALIFORNIA

    Senator Feinstein. Thank you very much, Mr. Chairman. I 
wish I could stay for the whole hearing. The Appropriations 
Committee is hearing the intelligence budget at 10:30, so I 
will need to go. But I want to thank you for your leadership on 
this. I know it has been difficult. You have been resolute and 
steadfast, and it is very much appreciated.
    I am one that believes that the time really has come to 
pass this bill. I listened very carefully to what Senator 
Cornyn said. We serve together on this Committee. I have come 
to appreciate him over the years. I think the one thing that I 
really agree with that he said is that these youngsters bear no 
culpability. And in my mind, that means a great deal. These 
youngsters did not institute the act to come here. Their 
parents did. They took part of our education system, and the 
youngsters that I see are the valedictorians--I know several--
the student body presidents, some fighting our wars, some 
getting master's degrees, some getting Ph.D.s, working on the 
side, helping out their families, trying to get scholarship 
wherever they can to better themselves so that they can be part 
of the American dream.
    Some of the youngsters in this room came in at 6 months 
old. They did not know. And our education system essentially 
they have made great use of, and I think that is important.
    UCLA has just finished a study that says that undocumented 
youth who would obtain legal status under the DREAM Act could 
contribute an estimated $1.4 trillion to the United States 
economy over a 40-year period. That is pretty compelling 
evidence that these students work hard, that they care, and 
that they want to be part of the American dream. And to the 
best of my knowledge, the American dream has never been an 
exclusive dream that only some people could share.
    I want to make one last comment about the borders. The 
borders are more secure today than they have been in 10 years, 
and I know Secretary Napolitano will comment eloquently on 
that. But to the best of my knowledge, we have doubled Border 
Patrol from 10,000 to 20,000 people; we have completed 600 
miles plus of border fence; we have avionics, we have all kinds 
of technology on the border. And what took place in the early 
1990s, which was people coming over by the thousands, no longer 
come over.
    So I just want to say that to use border security as a 
reason not to give these young people a chance makes no sense 
to me. I mean, here is somebody that has a graduate degree who 
cannot find a job. It is wrong.
    So I do not want to get wound up, but I want to thank you 
for what you are doing, and I want to support it in any way, 
shape, or form I can. Thank you very much.
    Senator Durbin. Senator, you can get wound up anytime.
    Thank you very much.
    Senator Grassley.

           OPENING STATEMENT OF HON. CHUCK GRASSLEY,
             A U.S. SENATOR FROM THE STATE OF IOWA

    Senator Grassley. I appreciate the opportunity to speak, 
but I am going to put my statement in the record so we can get 
on with it.
    Senator Durbin. Thank you.
    [The prepared statement of Ranking Member Chuck Grassley 
appears as a submission for the record.]
    Senator Durbin. Senator Franken.
    Senator Franken. I will not put my statement in the record, 
but when we get to the questions I will probably say a thing or 
two. Thank you.
    Senator Durbin. We are expecting Senator Schumer to join 
us, and he may have a chance to make an opening statement. But 
let me turn to our first panel of witnesses for opening 
statements. Each witness will have 5 minutes. The complete 
written statements will be made part of the official record. 
And if the witnesses will please stand and raise your right 
hands to be sworn.
    Do you affirm the testimony you are about to give before 
the Committee will be the truth, the whole truth, and nothing 
but the truth, so help you God?
    Secretary Napolitano. I do.
    Secretary Duncan. I do.
    Mr. Stanley. I do.
    Senator Durbin. Thank you very much, and let the record 
reflect that the witnesses answered in the affirmative.
    At the outset I want to say how pleased I am we have two 
members of the President's Cabinet here today. It is unusual 
for Cabinet Secretaries to appear before a Subcommittee and 
unusual for them to testify in support of legislation. I think 
it is a measure of this administration's commitment to the 
DREAM Act that you are here.
    Our first witness is Secretary of Education Arne Duncan. 
Previously, he was chief executive officer of the Chicago 
Public Schools from 2001 until 2008, the longest-serving big-
city education superintendent in the country. Prior to this he 
ran the nonprofit foundation Ariel Education Initiative and 
played professional basketball in Australia. Secretary Duncan 
graduated magna cum laude from Harvard University.
    Thank you for being here today, and the floor is yours.

           STATEMENT OF HON. ARNE DUNCAN, SECRETARY,
          U.S. DEPARTMENT OF EDUCATION, WASHINGTON, DC

    Secretary Duncan. Chairman Durbin, Ranking Member Cornyn, 
and Members of the Subcommittee, thank you for the opportunity 
to come before you today and talk about the DREAM Act.
    As you know, the Obama administration strongly supports 
this legislation which historically has enjoyed support from 
both sides of the aisle. Through it, a generation of Americans 
will have the opportunity to earn a college degree and serve 
our country in the military. Without it, these young people, 
who have been here for most if not almost all of their lives 
will miss out on the American dream, and our country's long-
term economic prosperity will suffer as they fail to fulfill 
their true economic potential.
    In the few moments that I have today, I want to explain two 
reasons why it is critically important to pass the DREAM Act.
    First, it is an issue of fairness. Thousands of young 
people have worked hard, but they are being denied the chance 
to build a better future for themselves and to contribute their 
skills, talents, and creativity to our country.
    Second, it is an issue of economic prosperity. By offering 
these young people the chance to earn a college degree, we are 
helping them establish their own economic security, and in the 
process they will help sustain America's economic 
competitiveness into the future.
    The students who will benefit from the DREAM Act deserve a 
fair chance to succeed. They are some of our country's best and 
brightest, and as we saw here today, they come from across the 
globe. But they were raised and educated here in America. They 
have deep roots here and are loyal to our country because for 
many of them it is the only home they have ever known. And we 
should not punish these students because they are brought here 
by their parents.
    Some of them first learned that their families are 
undocumented when they applied for college at 17 or 18 years 
old. And it goes against the basic American sense of fairness 
to deny them opportunities because of the choices made by their 
parents.
    It also goes against our national interests to deny these 
young people, these students, a chance to get a college 
education. By creating opportunities for these bright and 
talented youth to attend college, they will contribute much, 
much more than they ever could as struggling workers moving 
from one under-the-table job to another. With a college 
education, they can fill important jobs in fields today facing 
critical shortages, such as engineers and nurses and teachers. 
And today it is important for folks to really understand this. 
In this very tough economic times, our country still has about 
3 million unfilled jobs open today. By 2018 we will need to 
fill 2.6 million job openings in the fields of science, 
technology, engineering, and mathematics.
    Let me say that again: 2.6 million openings in the STEM 
fields alone.
    The students who will benefit from the DREAM Act will 
absolutely help to fill those jobs. By working in these fields, 
they can contribute to our country's economic growth. With a 
bachelor's degree, their earnings will be up to 80 percent 
higher than if their education ends in high school.
    According to a 2010 study from UCLA, those who would 
benefit from the DREAM Act could generate between $1.4 trillion 
and $3.6 trillion in income over their careers. With those 
extra earnings, they will purchase homes and cars and other 
goods to drive our economic growth. And we know that these 
students are hungry. They are hungry to go to college. Right 
now 13 States offer in-State tuition for undocumented students. 
In these States that offer a promise of low-cost tuition, the 
high school dropout rate for non-citizen Latinos has fallen by 
14 percent.
    Texas was actually the first State to create tuition 
benefits for these students. Today undocumented students in 
Texas are almost 5 times more likely to enroll in postsecondary 
education as opposed to undocumented students in nearby States 
that do not offer them that same in-State tuition.
    But for far too many of these young students, the benefit 
of in-State tuition is not enough. Even with the reduced costs, 
college remains unaffordable for them. For those who cannot 
afford it, their choices are actually limited. Eventually the 
earning power of a college degree is limited because they are 
unable to legally work and become full participants in our 
economy. And that is why the Federal Government needs to offer 
low-cost loans and work-study opportunities and the potential 
for permanent resident status to our young people.
    Before I close, it is important to be clear about what the 
DREAM Act will do and what it will not do and to dispel two 
important myths.
    First, the DREAM Act will not provide amnesty to students. 
It will offer a conditional, lawful, permanent resident status 
only for students who meet a rigorous set of criteria. They 
must have entered this country before the age of 15, and they 
must have lived in this country for 5 years before the bill's 
enactment. They must have graduated from high school or have 
earned admission into an institution of higher education. They 
must pass a rigorous background check to show they are not a 
security threat and demonstrate good, moral character.
    Students would not be eligible if they have a criminal 
record that would make them inadmissible to this country or 
result in imprisonment that exceeds certain amounts of time. 
The students will earn their permanent resident status after a 
6-year process.
    The second myth about the DREAM Act is that it would 
restrict the availability of Federal student aid for U.S. 
citizens. Simply put, that is not true. It would not happen. By 
statute, student loans are available to all students who are 
eligible to receive them. And because DREAM Act students would 
be ineligible for Pell grants, passing this bill would not have 
costs associated with the program.
    All told, the Congressional Budget Office, the CBO, 
estimates that the DREAM Act would generate $1.4 billion more 
in revenue than it would add in costs over the next decade. 
And, collectively, as we strive to reduce the deficit, we 
simply cannot afford to leave that kind of money, those kinds 
of resources on the table.
    Chairman Durbin, you and I have worked together on so many 
issues both here in Washington and back home in Chicago. I just 
have tremendous admiration for your courage, for your tenacity, 
and for your integrity. We have done many things together, but 
nothing--nothing--we could do together would be more important 
for our Nation's young people and ultimately for our country 
than passing this DREAM Act, and I thank you so much for your 
personal leadership on this issue.
    This is common-sense legislation that will open the doors 
of postsecondary education to thousands of deserving young 
people. Millions of our ancestors, yours and mine, have come to 
America to be free, to work hard, and to pursue their dreams. 
They have fueled our economy for generations and made America 
the most prosperous Nation in the world. By passing the DREAM 
Act, we will offer a new generation of immigrants the 
opportunity to go to college, help our economy prosper, and 
live their own American dreams.
    Thank you.
    [The prepared statement of Hon. Arne Duncan appears as a 
submission for the record.]
    Senator Durbin. Secretary Duncan, thank you very much.
    We are going to go slightly out of order here because 
Senator Schumer, who chairs the Immigration Subcommittee and 
was kind enough to allow me to have this special hearing, has 
to go to another important meeting, and he has asked if he 
could make a brief opening statement before Secretary 
Napolitano and Dr. Stanley. So since he has the important 
Subcommittee for your homeland security agency, I think we 
ought to let him do it.
    Secretary Napolitano. Absolutely.
    [Laughter.]
    Senator Durbin. Senator Schumer.

            OPENING STATEMENT OF HON. CHUCK SCHUMER,
           A U.S. SENATOR FROM THE STATE OF NEW YORK

    Senator Schumer. Thank you. First I want to thank you, 
Senator Durbin, for holding this hearing. I want to thank 
Chairman Leahy as well as Ranking Member Cornyn. And I am 
honored to be here today for this first Senate hearing on the 
DREAM Act, and I am glad that everyone here worked hard to make 
this a reality.
    When Senator Durbin asked me if he could chair a hearing on 
the DREAM Act in the Immigration Subcommittee, I could not have 
been happier to let him do it, and I want to salute his 
leadership on this issue, which has been passionate, 
intelligent, effective, and never-ending--and will not end, I 
am sure, until the DREAM Act is enacted into law.
    The American people have heard a lot about the DREAM Act 
today, and I just wanted to make three simple points.
    First, the DREAM Act comports with basic American 
traditions of enforcing the rule of law and holding individuals 
accountable for their actions. Unlike other individuals who 
might fall under the category of being an illegal immigrant, 
the DREAM Act only applies to young persons who made no 
decision to come to America. None of the young people who would 
benefit from the DREAM Act broke the law when they came here. 
They had no intent to break the law, and there is no law they 
can be prosecuted for breaking. This is an undisputed fact.
    The best thing about America, the thing I am proudest of, 
is that we each stand on our own two feet. We are not judged by 
who our parents are, what our parents did for a living, or 
when, why, or how our parents came to this country. We are 
judged by our own actions, and the deal we all abide by is that 
if we work hard and play by the rules, the American dream is 
available to each and every one of us.
    But too many still say we should punish people not for 
their own actions but for actions of their parents. Well, that 
is un-American, and it violates the very spirit of our 
Constitution, which specifically says that there shall be no 
corruption of blood, meaning our Founding Fathers specifically 
endorsed the concept that children should not be punished for 
the sins of their parents.
    Second, the DREAM Act only serves to eliminate a 
nonsensical distinction that currently exists within our 
immigration system, a distinction where foreign students with 
no ties to America are actually treated much better than 
children who have grown up their whole lives in this country 
and have graduated from American high schools. Here is what I 
mean.
    Under our current system, if a young person living in 
Mexico, England, China, or Egypt is accepted for study at an 
American university, that child is welcome to come here to 
America with a student visa so long as they do not pose a 
threat to the country. Then if that same young person can find 
a job in the United States upon graduating, he or she can often 
earn citizenship if their employer agrees to sponsor that 
person for a green card. But the DREAM Act kids, who are 
educated in our public schools and who are Americans in their 
hearts and in their souls, cannot go to college if they are 
accepted into our schools without subjecting themselves to the 
risk of deportation.
    This distinction simply makes no sense. I would much rather 
give a slot at one of our universities to a young person who 
wants to stay here and contribute than to an individual who 
might want to use their education to return home and compete 
against our companies.
    Third, the DREAM Act does not even come close to giving 
legal status to every young person who entered the United 
States without legal status. It only legalizes the few young 
people that can keep their nose clean for 10 years, earn a 
college degree, or serve military honorably and with 
distinction. Many would say that those are among the best of 
people that we want to become citizens. I cannot think of 
anyone who embodies the rugged American spirit more than these 
young folks who will succeed and earn legal status under this 
program.
    And I want to think of individuals like Cesar Vargas. He is 
a graduate of my alma mater, James Madison High School. I 
played basketball at James Madison, and our team's motto was, 
``We may be small but we are slow.''
    [Laughter.]
    Senator Schumer. I hope the team was better when Cesar went 
there.
    Anyway, he was brought to the United States by his parents 
when he was 5. He is here today. I know you had all the DREAM 
kids rise, but maybe if he is not embarrassed, Cesar would rise 
so I could just wave and say hello. Hi, Cesar. He is wearing 
the American flag on his lapel, I might note. Right? Did I see 
that correctly?
    We do not have to sing the Madison alma mater together, 
Cesar, for the sake of keeping the rest of the audience in the 
room.
    When Cesar was in college, he tried to enlist in the 
military but was turned away because he did not have legal 
status. Today Cesar is a student at City University of New York 
of Law. He has a GPA of 3.8. He is fluent in Spanish, Italian, 
and French, and he is close to mastering Cantonese and Russian. 
Cesar obviously is a talented individual. He has received 
lucrative offers to work for corporate law firms outside the 
United States, but his dream--his dream, and the dream of many 
of us--is for him to stay in the United States and serve our 
country. He wants to serve as a military lawyer. And, by the 
way, we need military lawyers who speak all those many 
languages. Without the DREAM Act, Cesar will not be able to 
enlist in the military.
    Haven't young people like Cesar proven that they are worthy 
of the opportunity to live their dreams?
    So I thank everyone for coming to this hearing, and I hope 
we can pass the DREAM Act as part of tough, fair, and 
practical, bipartisan immigration reform legislation as soon as 
possible. And I tell my good friend from Texas, we are 
continuing to work on a bipartisan comprehensive bill. We are 
making decent progress, and I hope he will join us in trying to 
make that happen.
    I thank Secretary Napolitano and Dr. Stanley for indulging 
me here, and I certainly thank Chairman Durbin for leading this 
hearing and leading this drive for the DREAM Act.
    Senator Durbin. Senator Schumer, thank you for that strong 
statement, and we are looking forward to working together.
    Our next witness, Janet Napolitano, is Secretary of 
Homeland Security. Previously Secretary Napolitano was Governor 
of Arizona. She was the first woman to chair the National 
Governors Association and named one of the top five Governors 
in the country by Time Magazine. Secretary Napolitano was also 
the first female Attorney General of Arizona and served as U.S. 
Attorney for the district of Arizona. Secretary Napolitano 
graduated from Santa Clara University where she was the 
university's first female valedictorian, received her J.D. from 
the University of Virginia School of Law.
    Secretary Napolitano, we look forward to your testimony.

STATEMENT OF HON. JANET NAPOLITANO, SECRETARY, U.S. DEPARTMENT 
              OF HOMELAND SECURITY, WASHINGTON, DC

    Secretary Napolitano. Thank you, Chairman Durbin, and thank 
you, Ranking Member Cornyn, and it is also a pleasure to see 
Ranking Member Grassley, and we appreciate your work with the 
Department on all of the range of matters before the Department 
of Homeland Security.
    I appreciate the opportunity to testify today in favor of 
the DREAM Act, which is a priority for this administration. It 
is important to the Nation as a whole. It is important to the 
mission of the Department of Homeland Security. The President 
and the administration strongly support this bill, and I would 
echo everything that Secretary Duncan said before me.
    Now, last December I joined the President and many members 
of the Cabinet in urging the Congress to pass the DREAM Act. In 
fact, that effort included not only the Departments of Defense 
and Education, who are here today, but also Secretaries 
Salazar, Locke, Solis, Vilsack, and a host of others who worked 
for the bill's passage.
    We were disappointed that this important legislation did 
not overcome the filibuster against it, but we did not view 
that as a terminal point for the DREAM Act. And for that reason 
I commend you, Senator Durbin, and the numerous cosponsors of 
the DREAM Act for continuing to work to pass this bill.
    The case for the DREAM Act is strong, and there are many 
ways in which this legislation is important for our country. 
President Obama has called the DREAM Act, ``the right thing to 
do for the people it would affect and the right thing to do for 
the country.'' And not only is it the right thing, it is the 
smart thing. Both Democrats and Republicans have voiced support 
for this common-sense bill because it is important to our 
economic competitiveness, as Secretary Duncan said; our 
military readiness, as you will hear; and there is, quite 
frankly, no reason not to pass this important legislation.
    It is also important to our law enforcement efforts, and as 
the member of the Cabinet responsible for enforcement of 
immigration laws, I would like to focus on how the DREAM Act 
would strengthen our ability to enforce and administer our 
Nation's immigration laws.
    The DREAM Act should be seen in the broader context of this 
administration's comprehensive approach to border security and 
to immigration enforcement which has achieved important and 
historic results. Over the past 2 years, our approach has 
focused on identifying criminal aliens and those who pose the 
greatest security and public safety threats to our communities. 
This is what any good law enforcement agency does. It sets 
priorities to make sure we maximize the impact of each 
enforcement dollar.
    The DREAM Act supports these important priorities because 
only young people who are poised to contribute to our country 
and have met strict requirements regarding moral character and 
criminal history would be eligible. These individuals do not 
pose a risk to public safety. They do not pose a risk to 
national security. Yet, as long as there are no legal options 
available for them to adjust their immigration status, they 
will be part of the population subject to immigration 
enforcement.
    It simply does not make sense from a law enforcement 
perspective to expend limited law enforcement resources on 
young people who pose no threat to public safety, have grown up 
here and want to contribute to our country by serving in the 
military or going to college.
    The reality is that we have a significant population of 
people who are in this country illegally, some 11 million, and 
Congress simply does not appropriate the resources to remove 
such a large number. So that is why it has been important to 
develop a clear strategy with clear priorities to guide our 
enforcement efforts. That is why it is so important that we 
utilize programs that focus our enforcement efforts on the 
populations that are most likely to pose a threat to security 
or public safety.
    Our Department has focused on identifying criminal aliens 
and those who pose the greatest threats to our communities, and 
we have prioritized them for removal from our country. We have 
also worked to ensure that employers have the tools they need 
to maintain a legal workforce and face penalties if they 
knowingly and repeatedly violate the law.
    Through the establishment of clear priorities, our interior 
enforcement efforts are also achieving unprecedented results. 
More than half of those removed last year were convicted 
criminals, the most ever removed from our country in a single 
year. And between October of 2008 and October of 2010, the 
number of convicted criminals that were removed from the United 
States increased 71 percent while the number of non-criminals 
removed dropped by 23 percent.
    Indeed, the priorities we have set are strengthened by the 
DREAM Act. It is simple. Passage of the DREAM Act would allow 
us to focus even more attention on true security and public 
safety threats by providing a firm but fair way for individuals 
brought into our country as children through no fault of their 
own to obtain legal status by pursuing higher education or by 
serving in the United States Armed Forces.
    As introduced, the DREAM Act establishes a rigorous process 
for those who enter the United States illegally as children, 
but allows them to obtain conditional permanent resident status 
by proving that they meet several strict requirements. Those 
individuals who would qualify under the DREAM Act do not fall 
within our enforcement priorities, and passage of the DREAM Act 
would completely eliminate them from the population that is 
subject to immigration enforcement.
    Passage of the DREAM Act will neither resolve nor 
substitute for the need for comprehensive immigration reform. 
But while the broader immigration debate continues, I urge the 
Congress to address the DREAM Act now. It is common-sense 
legislation. It has been supported, at least in the past, by 
Democrats, Republicans, and Independents, and it will assist 
the Department of Homeland Security in fulfilling our security, 
our public safety, and our immigration enforcement missions.
    Thank you for the opportunity to testify. I look forward to 
your questions.
    [The prepared statement of Hon. Janet Napolitano appears as 
a submission for the record.]
    Senator Durbin. Thank you, Madam Secretary.
    Our next witness is Dr. Clifford Stanley, Under Secretary 
of Defense for Personnel and Readiness. Previously, Dr. Stanley 
was president of Scholarship America, the Nation's largest 
nonprofit private sector scholarship organization; prior to 
this, executive vice president, University of Pennsylvania. 
Under Secretary Stanley, a retired United States Marine Corps 
infantry officer, served 33 years in uniform, retiring as a 
major general. He received his B.A. from South Carolina State 
University, his Master's of Science degree from Johns Hopkins, 
and a doctorate from the University of Pennsylvania.
    Under Secretary Stanley, please proceed with your 
testimony.

  STATEMENT OF CLIFFORD L. STANLEY, PH.D., UNDER SECRETARY OF 
    DEFENSE FOR PERSONNEL AND READINESS, U.S. DEPARTMENT OF 
                    DEFENSE, WASHINGTON, DC

    Mr. Stanley. Thank you, Chairman Durbin and Ranking Member 
Cornyn and other Members. I am pleased to be here today to 
discuss S. 952, the Development, Relief, and Education for 
Alien Minors Act of 2011, the DREAM Act, and its impact on our 
Armed Forces. The DREAM Act would provide a path to legal 
permanent residence for individuals who have come to the United 
States at 15 years of age or younger and have lived here for at 
least 5 years. These young people must also meet several 
additional requirements before they receive lawful permanent 
resident status. They include completing 2 years of honorable 
military service or 2 years of college, demonstrating good 
moral character, and remaining in a conditional status for a 
period of 6 years.
    As I am joined on this panel by the Secretary of the 
Department of Homeland Security who will discuss and who has 
already discussed some parts of the DREAM Act and immigration 
and naturalization, the Secretary of the Department of 
Education who will focus on the impact of postsecondary 
education, my remarks today will be limited to the impact of 
the DREAM Act on the military force and force management.
    The Department of Defense strongly supports the DREAM Act. 
This targeted legislation will allow the best and the brightest 
young people to contribute to our country's well-being by 
serving their country in the United States Armed Forces or 
pursuing a higher education. In my three decades of service as 
a Marine officer, I served with many people who immigrated to 
our Nation looking for a better life. Since the Civil War, we 
have embraced the role of immigrants in our Armed Services. 
This is nothing new. Regardless of their backgrounds, they had 
and continue to have one core mission in life: to serve our 
Nation.
    Today more than 25,000 non-citizens serve in uniform, and 
approximately 9,000 legal permanent resident aliens enlist each 
year. They serve worldwide in all services and in a variety of 
jobs. They represent the United States both at home and 
abroad--even on the front lines of our current overseas 
contingency operations. Since September 11, 2001, over 69,000 
have earned citizenship while serving, and over 125 of those 
who entered military service after that date have made the 
ultimate sacrifice in war and have given their lives for our 
Nation.
    The DREAM Act expands the opportunity for service to an 
entirely new group of non-citizens--those who are in an 
undocumented status through no fault of their own. The young 
men and women who would be covered under this legislation would 
further expand the prime recruiting market for the services and 
allow us to selectively manage against the highest recruiting 
standards. They are scholars, student leaders, and athletes. In 
fact, some have participated in high school Junior ROTC 
programs.
    These students are culturally American, having grown up in 
the United States, often having little, if any, attachment to 
their country of birth. They are functionally without 
citizenship anywhere in the world, and passage of the DREAM Act 
would offer this very specific subset of young people the 
opportunity to serve the Nation in which they grew up and 
provide a path to becoming productive citizens and contributing 
members of our society.
    Candidates enlisting under the DREAM Act would be subject 
to the same rigorous entrance standards as all other 
applicants, maintaining the highest quality and integrity of 
the force. They would also be expected to complete the existing 
terms of service required of all members of the Armed Services.
    The Department strongly endorses and supports the passage 
of the DREAM Act and believes it will have a positive impact on 
military recruiting and readiness. I thank you for this 
opportunity to appear before you today and look forward to your 
questions.
    [The prepared statement of Clifford L. Stanley appears as a 
submission for the record.]
    Senator Durbin. Thank you, Dr. Stanley.
    We are honored to have the Chairman of the full Senate 
Judiciary Committee, Senator Leahy, here, and I would like to 
invite him to make some opening remarks.

          OPENING STATEMENT OF HON. PATRICK J. LEAHY,
            A U.S. SENATOR FROM THE STATE OF VERMONT

    Chairman Leahy. Thank you very much. I was able to schedule 
two different things at the same time because I knew this was 
in the hands of Senator Durbin and Senator Cornyn and the 
others. But I watched, Secretary Napolitano, your statement, 
and, Secretary Duncan, I agree with what you have said.
    Dr. Stanley, as the proud father of a young Marine, I am 
delighted to see you here and hear what you said. I know that 
my son, who is now finished with all of his Marine Corps 
duties, agrees completely with the support of the DREAM Act.
    I have been a supporter of this bill and a cosponsor since 
it was first introduced in the 107th Congress. I was 
disappointed when it did not pass last year, but Senator Durbin 
has been the strongest proponent of this. It is just 
remarkable. I do not want to embarrass him, but if you knew the 
hours he spends in cornering and collaring Senators pushing for 
this bill, the passion is very, very real.
    I think of all the young men and women who have worked so 
hard to support this legislation. They find themselves in an 
impossible situation. They have come out to speak for the 
legislation. They wish nothing more than to become lawful, 
patriotic full participants in the country they call home, and 
they actually risk their position in this country in speaking 
out. I think those are some of the bravest things I have seen.
    The DREAM Act serves the interests of the United States. It 
certainly encourages and rewards military service. I agree with 
Secretary Gates and General Powell that our Armed Services will 
be stronger for encouraging greater participation by those who 
want to serve the United States. Allowing these young people to 
serve America in their journey to become Americans is something 
we should all support. Remember, it is a long journey for them. 
But they want to become Americans. As Americans, we ought to be 
so proud to see these young people wanting to serve and embrace 
our Nation.
    Just think how extraordinary it is, as you have already 
pointed out, that men and women who are not U.S. citizens fight 
in service of the United States and its citizens, and let us 
not forget they die in the service of the United States and our 
citizens. That says a lot about America, but it also says a lot 
about the character of those who serve in our military who want 
to become Americans.
    The bill also promotes educational opportunities for 
America's young people. I can see no purpose that is served by 
deporting talented young people who find themselves in a 
situation not of their own making, especially for those who 
wish for nothing more than to contribute to the country they 
call home.
    Military readiness and higher education are not Democratic 
or Republican ideals. They are American ideals. They are the 
kind of ideals that attracted my grandparents, my maternal 
grandparents, when they immigrated to this country from Italy, 
or my wife's parents when they immigrated to Vermont.
    To disparage this legislation by calling it ``amnesty'' 
ignores our fundamental values of fairness and justice. Almost 
30 years ago, in the landmark Supreme Court case Plyler v. Doe, 
the Supreme Court held that children may not be punished for 
the actions of their parents. I find it hard to believe that 
anyone would disagree with that principle. But if you deny 
these deserving students a chance to gain lawful status and an 
opportunity to realize their potential, you do just that.
    I know I preach to the converted with a lot in this room. 
We just have to convert 50 percent plus one of the House and 
the Senate. Or, I guess now we have to go 60. When I came here, 
you only needed 51 votes to pass something, but now we need 60. 
But whatever it takes, it is a matter of honesty and fairness 
and what we stand for as Americans. Every one of us has 
immigrant parents, grandparents, or great-grandparents 
somewhere down the line. We enjoy being Americans. Let people 
who have worked hard to be Americans enjoy it, too.
    Senator Durbin. Thanks, Chairman Leahy. You have been a 
stalwart champion and friend on this issue.
    We are now going to ask questions--and I will be first, and 
then we will go through the panel here--of the first witness 
panel that we have before us. And before asking my first 
question, I would like to take a moment to respond to my friend 
Senator Cornyn from Texas.
    To my knowledge, the only perfect law ever written was 
written on stone tablets and carried down a mountain by Senator 
Moses.
    [Laughter.]
    Senator Durbin. Otherwise, we are doing our best, and 
sometimes we do need to improve legislation that is before us. 
I am always open to that, and I have always been open to good-
faith efforts to amend the DREAM Act to achieve our goals, 
which I think are fairly simply stated.
    I would also say that I have been faulted, maybe even 
today, for looking for every single opportunity to bring this 
matter before the United States Senate. I brought it as an 
amendment to a bill, and I was criticized because they said you 
did not bring it as a free-standing bill. Then I brought it as 
a free-standing bill, and they said, well, it is the wrong 
time.
    It seems like if people are looking for a reason to vote 
no, they are always going to find one. But I do want to invite 
those who are genuinely interested in working on this 
legislation to work with me. Let me say a few things about the 
criticisms that have been leveled.
    One, this notion that this is an unlimited opportunity for 
people to qualify under the DREAM Act ignores the obvious. 
Under the DREAM Act no one will be eligible unless they arrived 
in the United States at least 5 years before the bill became 
law, so it is not a completely open-ended opportunity.
    Secondly, Senator Cornyn has gone through a long list of 
very serious misdemeanors, and I do not diminish them in any 
way. I will tell you, though, there is a specific requirement 
in the DREAM Act that the person who is applying be of good 
moral character, which means at the end of the day they will be 
judged in the entirety of their life experience, and they have 
to pass that judgment.
    Third, there are questions as to whether or not there is 
going to be fraud involved in applications by people under the 
DREAM Act. This bill establishes a criminal penalty for fraud 
of 5 years in prison. This is not a light slap on the wrist. We 
are serious. If you want to be serious about becoming an 
American, at least legally an American and become an American 
citizen, we want to make sure that you are honest with us all 
the way.
    So let me speak to questions to the panel. Secretary 
Napolitano, I listened carefully to what you had to say, and as 
I understand it, with 11 million undocumented estimated in our 
country and your responsibility to deport those whom you 
consider to be a threat to our country, you have established a 
priority, as you have said, where those who have some criminal 
background or otherwise some character defect that might be a 
threat to America.
    What I am asking you is, there was a recent memo by John 
Morton in your Department which established some standards and 
guidelines for deportation. What are you doing to ensure that 
the Morton memo is fully implemented and DREAM Act students are 
not unjustly deported?
    Secretary Napolitano. Well, you are right, Senator Durbin. 
We simply do not receive the appropriation necessary to remove 
everyone who is technically removable from the United States, 
and so we have to set priorities. That is what good leaders do. 
That is what good law enforcement requires. Those priorities 
have been set forth in the Morton memo, and they focus upon 
those who are the greatest risk to public safety or to 
security.
    One of the things we are working on now is to design a 
process that would allow us as early as possible to identify 
people who are caught up in the removal system who in the end 
really do not fit our priorities or in the end an immigration 
judge would not find them removable. We have not perfected such 
a process, but we certainly are working on the design of one.
    Senator Durbin. I hope you can and I hope we can work 
together because I honestly believe that you have an important 
and serious responsibility to keep America safe, and I believe 
the overwhelming majority of young people I have met who would 
qualify under the DREAM Act are not only no threat to America, 
they are, in fact, something good for the future of America, 
and we want to make sure that we do our part in the Senate and 
in Congress, but to work with this administration so that they 
are not caught up in deportation when, in fact, it is not in 
the best interests of our country.
    I would also like to go to this question that has been 
raised repeatedly about so-called misdemeanor offenses. As this 
bill is written, an applicant under the DREAM Act must 
establish by a preponderance of the evidence that they are of 
good moral character, going beyond whether or not there has 
been a misdemeanor on their record. Can you tell me what that 
standard means in light of some of the questions that have been 
raised earlier?
    Secretary Napolitano. Well, I think you said it very well 
in your original response to Senator Cornyn. It is looking at 
the totality of circumstances and the totality of behavior of 
the individual who is the applicant for DREAM status. And so 
there are gray areas: Offenses in some States may be 
misdemeanors; in others they may be felonies. But that can all 
be taken into account by the immigration officer who is 
processing the application.
    Senator Durbin. Secretary Duncan, the argument has been 
made here today that we cannot afford these students, they are 
just too darn expensive, they are going to cost us too much 
money to educate them, and we have to acknowledge the fact we 
are in a deficit situation. So are the DREAM Act kids too 
expensive for the future of America?
    Secretary Duncan. Quite to the contrary, the opposite is 
true. Again, whether it is CBO numbers or you look at lifetime 
earnings, Senator, you and I both know we have to educate our 
way to a better economy. That is the only way we are going to 
get there. And when we have a couple million unfilled high-
skill, high-wage jobs available today, even in this tough 
economy, we need the workers who can fill those jobs, who have 
those skills. The only way we get there is if we have many more 
people graduating from college. If we want to maintain our 
economic competitiveness relative to other nations, we have to 
increase those numbers pretty significantly.
    This is a huge number of young people passionately 
committed to their education who are going to make a lot of 
money, who are going to pay taxes, who are going to buy homes, 
who are going to buy cars. They are going to contribute. And, 
again, according to CBO's numbers, this will lead to deficit 
reduction. To not take advantage of this as a country is simply 
nonsensical to me. This is an investment, not an expense.
    Senator Durbin. And isn't it also true that most of these 
students have been beneficiaries of public education to this 
point in their lives?
    Secretary Duncan. They would basically be the only students 
who could qualify. Again, going back to your point, they would 
have to have been here and been in this country for at least 5 
years beforehand. They would have to have graduated from 
school. These are young people committed to getting an 
education, committed to contributing.
    We have a devastating dropout rate in this country. Years 
ago it was okay to drop out. You could go get a good job. There 
are none of those jobs available today. We have to get that 
dropout rate down to zero. It is far too high in our home State 
of Illinois. It is far too high in Texas and other States 
around the country. By giving that dream, making that dream a 
reality, that young people know they can go to college, we will 
keep many more people engaged; we will keep them moving in the 
right direction. And if we do that, they are going to give so 
much more to the country than they can by working a bunch of 
dead-end, small-time cash jobs.
    Senator Durbin. Secretary Duncan, a few years ago I spoke 
at the Illinois Institute of Technology commencement in Chicago 
and watched as master's degrees and Ph.D.s were awarded and saw 
all of the students, primarily from Asia, as they filed across 
the stage. And someone said to me later, ``Why don't we staple 
a green card on every one of those diplomas? We need this 
talent. We need these people.'' And I think the point was made 
earlier by Senator Schumer.
    Do you see some inconsistency in welcoming those born in 
another land who come to the United States for an education and 
saying to those who have gathered here with engineering degrees 
and the like, ``Leave, we do not need you''?
    Secretary Duncan. Again, that makes no sense whatsoever, 
and we need people who are going to be the creators, the 
entrepreneurs, the innovators who are going to create the next 
generation of jobs, the next Google, the next Facebook. I have 
seen numbers that show that of all the start-up companies that 
come out of Silicon Valley, about a fourth are started by 
immigrants.
    We need that talent. We need them to drive our country 
forward. They can be the field to our economic engine. So not 
to give them opportunity, we hurt our country, and that is what 
I simply cannot get past. I cannot understand that.
    Senator Durbin. Dr. Stanley, I have heard a lot of 
suggestions about the DREAM Act over the years, and one of them 
I have heard more than once said let us just make this for 
military. If they will enlist in the military, then we will 
give them a chance to be legal. In other words, if they are 
willing to die for our country and wear our uniform, we ought 
to give them a chance to be citizens, but under no other 
circumstances.
    What is wrong with that position?
    Mr. Stanley. Well, Senator, that is a very narrow focus. I 
believe and the Department believes that that should be a much 
broader focus. That way we have--we are looking at increasing 
the pool, those eligible. We do not want to narrowly scope this 
so it is just the military. In fact, that would be the opposite 
of it. I think the unintended consequences of doing that would 
not achieve what you want to do.
    We also would be actually discriminating against those who 
were not able to actually be able to serve. We have people, for 
example, who are disabled, who may have other disqualifying 
characteristics through no fault of their own that could not 
serve in the military but who are just as qualified.
    Again, the pool is the most important thing for us in 
having a talented pool to choose from.
    Senator Durbin. And we speak with some pride of the fact 
that we have an all-volunteer military force. In this 
situation, if this became the only avenue for legalization, it 
really, I think, runs afoul or in the face of that whole 
concept of a volunteer military force, does it not?
    Mr. Stanley. It does, yes.
    Senator Durbin. Senator Cornyn.
    Senator Cornyn. Thank you, Mr. Chairman.
    Madam Secretary, in your testimony you assert that only 
individuals of good moral character who have not committed any 
crime that would make them inadmissible to the United States 
would be eligible for the DREAM Act. Later in your written 
testimony you clarify that to mean that no one convicted of a 
felony or more than three or more misdemeanors could be 
eligible.
    Does it concern you that we have a loophole for people with 
multiple criminal convictions in a bill that is advertised as 
helping non-culpable students who have lived lives on the 
straight and narrow path?
    Secretary Napolitano. Senator, first, I think that, again, 
we have to look at the totality, and the bill allows the 
totality of the circumstances to be taken into account in terms 
of the character of the individual involved. But the criteria 
as set forth in the bill are far more strict than the normal 
criteria used in the naturalization or the legalization 
process.
    Senator Cornyn. Well, let me ask, do you support the bill 
as currently written?
    Secretary Napolitano. I do.
    Senator Cornyn. And you speak on behalf of the 
administration, correct?
    Secretary Napolitano. I do.
    Senator Cornyn. Would you support an amendment that would 
specify that certain misdemeanor offenses for which a single 
conviction of those offenses would make someone ineligible? For 
example, an amendment that would strike eligibility for driving 
under the influence of alcohol or possession of drugs or 
burglary or theft or assault, would the administration support 
an amendment to Senator Durbin's bill that would make people 
guilty of those offenses ineligible?
    Secretary Napolitano. I think, Senator, that if you wish to 
offer some language to actually examine, we would certainly be 
open to looking at that.
    Senator Cornyn. Well, that is not particularly reassuring 
given the track history of Senator Reid bringing the bill to 
the floor and not allowing any amendments. Last December was 
the last time. But this bill also as written gives you 
discretion, as Secretary of Homeland Security, to waive certain 
ineligibility requirements. For example, someone who has 
committed voter fraud, you could in your discretion waive that 
ineligibility requirement.
    Under what circumstances would you see yourselves using 
that waiver authority for somebody who has been convicted of 
voter fraud?
    Secretary Napolitano. Well, again, I think this is not the 
hearing to go into some of the actual details of the bill in 
that sense, and I would suggest----
    Senator Cornyn. Of course it is.
    Secretary Napolitano [continuing]. Senator Cornyn, that if 
you have amendments, we would be happy to consider them, and 
this is the time to see that language.
    Senator Cornyn. Well, Madam Secretary, you are here under 
oath speaking on behalf of the administration on a piece of 
important legislation that bears--and you say you support it as 
written and the administration supports it as written. I think 
it is appropriate to be able to ask you questions about it. 
And, in fact, isn't it true under this legislation that you as 
the Secretary of the Department of Homeland Security would have 
the authority to waive entirely the education or military 
requirements and put someone on a path to citizenship? Are you 
aware of that?
    Secretary Napolitano. Senator, I think that the criteria as 
listed in the bill are very specific, and that would be the 
path that we would adopt.
    Senator Cornyn. So you would not use the waiver authority 
that is put in the bill?
    Secretary Napolitano. Not necessarily.
    Senator Cornyn. Well, that is not very comforting, ``not 
necessarily.'' For an administration that has already granted 
1,433 waivers of the health care bill that has passed, 3.2 
million people are not required to comply with the health care 
law that passed, the controversial health care bill that passed 
this Congress. And to give you or any other non-elected, non-
accountable individual complete discretion to waive the 
requirements of the law, I will have to tell you, is not 
comforting to me.
    But let me ask you, Senator Durbin I believe asked you 
about the so-called Morton memo, and, in fact, on Monday, the 
Houston Chronicle broke a story that uncovered what they said 
was an apparent attempt by the Department of Homeland Security 
to mislead the public and the Congress with regard to selective 
enforcement of certain immigration offenses. In fact, one 
spread sheet that was produced indicates that ICE attorneys in 
Houston alone sought the dismissal of deportation proceedings 
against 78 aliens convicted of offenses including sexual 
assault, kidnapping, assault with a deadly weapon, solicitation 
of murder, burglary, delivery of drugs, theft, forgery, and 
DWI, to name just a few.
    In fact, in 2010, I wrote you a letter and asked you for 
details with regard to this program. In response, the 
Department of Homeland Security assured me that a directive 
instructive ICE attorneys to seek dismissals of immigration 
proceedings involving certain classes of criminal aliens ``does 
not exist.'' But indeed now as the Houston Chronicle reports, 
it did exist, it does exist.
    Could you explain the apparent discrepancy between your 
response to a question about the existence of this memo and 
what the Houston Chronicle reported on Monday?
    Secretary Napolitano. I would be happy to. The Director has 
responsibility for immigration enforcement across the entire 
country, many field offices across the land, all dealing with 
different circumstances all the time. And his job--and I have 
asked him to do this--is to make sure that there are clear 
priorities that are set and enforced.
    Unfortunately, one of the 26 field offices conflated two 
different memos that had come out and misconstrued what he 
directed. That has since been clarified, cleared up, and fixed, 
and I would be happy to provide your office with a side 
briefing on that. But the plain fact of the matter is that a 
miscommunication occurred at the regional level in one of 26 
offices.
    Now, that does not really, I think, pertain here, and I 
will tell you why. What we are talking about here----
    Senator Cornyn. Well, Senator Durbin asked you about it--I 
beg your pardon--and so you answered questions about the Morton 
memo and about your policy for selectively enforcing 
immigration laws based on what you say are scarce resources. 
Have you ever requested Congress to provide the appropriations 
necessary for you to enforce the law as Congress has written?
    Secretary Napolitano. We certainly have provided Congress 
with the information about what it would take to remove 11 
million people from the country.
    Senator Cornyn. That is not the question, Madam Secretary. 
My question is: Have you requested the Congress the 
appropriations to enable the Department of Homeland Security, 
which is committed with enforcement of our immigration laws, 
with the ability to do its job?
    Secretary Napolitano. Senator, as you know, because this 
dialogue has gone on for quite some time in the Congress, we 
have provided the information about what it would take to do 
removal of everyone in the country. It is obvious that those 
resources are not available. And when you are talking about 
DREAM Act students, it really does not make sense. We really 
need to take our resource----
    Senator Cornyn. Madam Secretary, you are not answering my 
question. And let me close with----
    Secretary Napolitano. Well, perhaps I am not understanding 
your question. I thought I was answering it.
    Senator Cornyn. Well, you are not. Maybe we need to 
continue the dialogue.
    Secretary Napolitano. I would be happy to.
    Senator Cornyn. Secretary Duncan, let me just ask, since my 
time is quickly escaping us, you talk about the importance of 
being able to retain in this country highly educated people who 
hail from other countries who are educated in our institutions 
of higher education, and I actually agree with you. That is why 
I have been the principal Senate sponsor of something called 
``the skill bill,'' which would actually raise the cap on the 
H-1B visas to enable people who graduate with math, science, 
engineering, and other degrees at the graduate or postgraduate 
level to enable us on a selected basis to retain them here in 
this country so they do not simply take the education that 
taxpayers have subsidized here and go back home and then 
compete with us and create jobs there. Do you and the 
administration support lifting the cap on the number of H-1B 
visas here so we can retain more of these students that are 
highly educated and whose educations are subsidized by 
taxpayers here in America?
    Secretary Duncan. I will just speak personally that I think 
in this country we need as much talent as we can get, and we 
need, again, the innovators, the entrepreneurs, the folks who 
are going to create jobs. And I think you have a room full of 
young people here who have those skills, who have that 
capacity. I want to give them those kinds of opportunities.
    Senator Cornyn. Well, do you know for a fact that the young 
men and women here in this room who seek passage of this 
authority would, in fact, qualify for those 3 million jobs that 
are unmet right now?
    Secretary Duncan. I do not know all these young people 
intimately here. I saw them here today. But I will tell you 
there are many young people in this room and around the 
country, in your home State and mine, whom, when we talk about 
almost 2 million unfilled STEM jobs--and we know that is the 
future economic engine of our country. Could many of the young 
people in this room and around the country help to fill those 
jobs and drive the economy? No question in my mind. Absolutely. 
I have worked with many of them in the Chicago public schools, 
extraordinarily talented.
    Senator Cornyn. Mr. Chairman, I wonder if you would permit 
me one last question. This is for Dr. Stanley.
    Dr. Stanley, you are aware, are you not, that under the 
current law the Secretary of Defense can waive certain 
ineligibility requirements for somebody who is not a green card 
holder or an American citizen and allow them to serve in the 
United States military? Are you aware of that, sir?
    Mr. Stanley. I believe you are referring to the Military 
Accessions Vital to the National Interest.
    Senator Cornyn. Yes, it is 10 U.S.C. Section 504, and it 
provides discretion to the Department of Defense Secretary to 
allow the enlistment of somebody who meets perhaps the 
situation of Cesar Vargas, who is not a green card holder, but 
it gives that discretion. Are you aware that there is 
discretion under current law to allow certain individuals on a 
selected basis to serve in our military who are not green card 
holders or American citizens?
    Mr. Stanley. I am, Senator. It is a very narrowly focused 
program. It is actually for very specific skills like medicine 
or language.
    Senator Cornyn. In fact, it has never been used, right?
    Mr. Stanley. It has been used.
    Senator Cornyn. It has been?
    Mr. Stanley. It has, yes, Senator. It has been used, in 
fact, as a pilot program that is actually being used now, and 
we use that for very specific skills.
    Senator Cornyn. Well, I would love to get--the information 
that my staff was provided or provided to me said that it had 
never been used, so I would love to get that information from 
you and your office.
    Mr. Stanley. We will do that.
    Senator Cornyn. Thank you very much.
    Thank you, Mr. Chairman.
    Senator Durbin. Thanks, Senator Cornyn. Our information 
says it has never been used for undocumented immigrants. It 
might have been some other immigration status.
    Mr. Stanley. That is correct.
    Senator Durbin. I believe later in the hearing Lieutenant 
Colonel Margaret Stock is going to testify about the challenge 
that would present.
    Senator Leahy.
    Chairman Leahy. Thank you, Mr. Chairman.
    Dr. Stanley, I am not going to be able to stay for Colonel 
Stock's testimony, but her testimony points out that the DREAM 
Act beneficiaries would be subject to all the statutory and 
contractual obligations of a U.S. citizen, but would still be 
ineligible for officer commissions and ROTC scholarships and 
other opportunities. They have to wait longer to become 
eligible to be naturalized than other non-citizens who serve in 
our military. That really does not sound like amnesty.
    Given the higher demands on the DREAM Act beneficiaries, do 
you think that we will still find them joining our military?
    Mr. Stanley. Yes, Senator, we do. We believe that we will 
find--because the standards for enlistment will not be relaxed, 
and we have to have qualified people who not only pass the 
physical but the mental and obviously have the moral background 
and all the things that go into being good citizens in order to 
be able to enlist into the military.
    Chairman Leahy. You talked about the historical 
contribution immigrants have made throughout history in our 
military. I remember a person in our military who was an 
immigrant in an area of conflict in this country who 
fortunately had language skills that were exactly helpful to 
others in the military and to our intelligence people.
    Aren't we better off with diversity within our military, 
and not just in race or place of origin but languages and all 
the rest?
    Mr. Stanley. Yes, that is correct, Senator. The issue of 
having language and cultural diversity within the military is 
very important, and, in fact, just the other day we met with 
some of our combatant commanders who actually emphasize that 
need as we go into different geographical regions in the world 
and preparing for actually what we may be doing tomorrow as 
well as executing what we do today.
    Chairman Leahy. Secretary Napolitano, I appreciate your 
being here. Can we assume, though, that you will come to 
testify before the full Committee in your capacity as Secretary 
before the year is out?
    Secretary Napolitano. Yes.
    Chairman Leahy. Thank you.
    Let me ask you this: You were a Governor of a southern 
border State and before that you were a prosecutor. Some have 
argued that if we have the DREAM Act, it is going to encourage 
more illegal immigrants to come to the United States in the 
future. That assumes that foreign nationals would come to the 
United States unlawfully in anticipation that some future act 
of Congress would provide relief. Do you agree with that 
argument?
    Secretary Napolitano. No. I think as the bill is drafted, 
there would be a time period set during which an individual 
would be eligible, but outside that period, there would not be 
eligibility. So it is not an unending process. This is really 
dealing with the young people the likes of which we see in the 
room this afternoon.
    Chairman Leahy. The current estimates are that 
approximately 2 million individuals currently in the United 
States could qualify for the DREAM Act if it was enacted. If it 
was enacted and the steps were being followed, would that free 
up some of your personnel in Homeland Security to do what most 
of us would consider regular law enforcement actions, in 
identifying and removing criminal aliens?
    Secretary Napolitano. Yes, it would, and that is the whole 
point of having clear guidelines, clear priorities. But what we 
would urge the Congress to do is to take this group of young 
people who are no risk to public safety, no risk to security, 
who have no individual culpability, and take them out of the 
universe of those against whom any enforcement action should be 
taken so that we can focus on others who are more serious risks 
to our Nation.
    Chairman Leahy. Secretary Duncan, I believe you have 
probably answered this, but I just want to make sure. 
Obviously, I am a supporter of the DREAM Act, but some have 
argued that it could impose higher costs on public colleges and 
universities through increased enrollment, people eligible for 
in-State tuition and so on. In my own State of Vermont, we have 
public universities; we have State universities.
    How do you react to a criticism like that?
    Secretary Duncan. I just look at CBO's numbers that showed 
this reduces the deficit. This is a budget saver, not an 
expense. And I have never seen a study in my life that said 
that investment in getting more young people college educated 
would somehow hurt the economy. It is just absolutely 
counterintuitive. We desperately, frankly, need many more young 
people in this country not just going to college but 
graduating, and we have so much talent here, so much potential 
to leave them on the sidelines, it sickens me.
    Chairman Leahy. Well, I am not going to disagree with that. 
There were some statistics in the paper the other day, the 
number of States with aging populations. We ought to be getting 
well-educated young people into our workforce, not the other 
way around.
    Secretary Duncan. We have gone from first in the world in 
college graduates to ninth, and I think we are paying a real 
price for that economically. And the President has challenged 
us to again lead the world in college graduates by 2020, and we 
have so many people who can contribute to us again leading the 
world. To not give them that opportunity is nonsensical.
    Chairman Leahy. Secretary Duncan, you have been to my 
State. I still think of the day when both you and my wife 
received honorary degrees from St. Michael's College. You came 
to a very diverse school in the area where a lot of immigrants 
have come and a lot of refugees have come. There are dozens of 
languages spoken there. But our State as a whole is not a 
diverse State. I think we are 97-percent white. But I have got 
to tell you, in my State of Vermont there is strong, strong 
support for the DREAM Act, strong support for it because 
Vermonters believe in fairness. It certainly is not something 
that will affect a lot of those young children you had school 
lunch with that day. But we Vermonters believe it is simply a 
matter of fairness, and an awful lot of Vermonters are only a 
generation or two away from immigrant status. We believe it is 
a matter of fairness. I believe it is a matter of fairness. And 
for whatever time I have left in the Senate, I will fight, 
along with Senator Durbin, for it.
    Senator Durbin. I need your help. Thank you.
    Senator Franken.
    Senator Franken. Thank you, Mr. Chairman.
    I also want to thank you, Secretary Napolitano, Secretary 
Duncan, and Dr. Stanley, and I especially want to thank all the 
students who are in the audience today. I think what you are 
doing is important and I think it is brave, and I commend you 
for it.
    Now, before I begin my questioning, I want to take a moment 
to explain why I support the DREAM Act. Since coming to office, 
I have learned a lot about so many Minnesotans--so many 
students like yourselves. I learned about a student whose 
parents brought him to the United States--to the suburbs of the 
Twin Cities of Minneapolis-St. Paul--when he was 8 years old, 
and he saves up all his money every year just to take one class 
at the University of Minnesota because that is all he can 
afford.
    I learned about a young woman who cleans bathrooms in a 
dental clinic in Apple Valley in Dakota County who wants to 
start her own design business.
    I learned about a young man who is student body president 
of his Minnesota college and wants to become an educator for 
kids who are poor like him.
    Each of those students is just like you. Each of those 
students is so smart and so capable and so good. And each one 
of those students has a dream, but because of this injustice in 
our law, those students are stuck. I applaud you, Mr. Chairman, 
for drafting a bill that would end that injustice, and I am a 
proud supporter of this bill.
    Dr. Stanley, I sincerely believe that the day after it 
passes there will be lines out the doors of college registrars 
and military recruiters, across this country.
    I did a lot of USO tours, and the USO asked me to go to 
Walter Reed. I had the same experience that I think everybody 
who goes to Walter Reed has, which is: You go there thinking, 
``How am I going to cheer up a guy who has lost some limbs?'' 
And you always end up getting cheered up yourself. I am sure 
you have had that. It is everyone's first experience.
    So I go there, and they have to go in and ask each wounded 
soldier whether they want a visitor. I remember--it was 
Specialist Melendez--I saw his name on the door--and they went 
in, came out and said, ``Okay, Al, go in.'' I was nervous. I 
saw Specialist Melendez, and he was grinning ear to ear, not 
because I was coming in--I thought it was because he was 
watching something on TV. And his dad was there grinning ear to 
ear. I started talking to him. He had lost one leg right up to 
his hip and the other leg above the knee. He was grinning 
because he had just become a citizen. I asked him how many guys 
in his unit were immigrants, and he said five, back in Iraq. I 
guess none of them had become citizens yet.
    I also learned on those tours that there are undocumenteds 
serving in our military. Is that the case, Dr. Stanley? I mean, 
there are not supposed to be, but there are, right?
    Mr. Stanley. Senator, I have to take it for the record. 
That I do not know. About undocumented?
    Senator Franken. Yes. I have seen reports that they manage 
to do it.
    Let me ask a question. Say an undocumented managed to get 
into the military, which they do, from reports I have read, and 
they got wounded, say, after this was passed, but they had 
committed a couple of misdemeanors. If this person had lost a 
leg while fighting and serving in our military, would you be 
able to give them a waiver, Madam Secretary?
    Secretary Napolitano. Well, you present a compelling case, 
and every exercise of waiver authority needs to be narrowly 
construed because we want to follow the words of the statute. 
But the case you described, depending on what the misdemeanors 
were, if they were truly minor misdemeanors and someone had 
sacrificed limbs for their country and they otherwise met every 
other criteria, of which there is a long laundry list of in 
this bill, that would be something that would be considered for 
a waiver, yes.
    Senator Franken. So maybe that waiver is a good thing.
    Mr. Chairman, 2 months ago you sent a letter with 21 other 
Senators to President Obama asking him to grant deferred action 
to DREAM Act-eligible students while we work on passing this 
legislation. I would like to let everyone know that today I 
will be sending my own letter to the President in support of 
deferred action. I think it is the least that we can do to stop 
this injustice from getting any worse.
    Secretary Duncan, you talked about the CBO report on how 
passing the DREAM Act would affect our deficit. We are now in 
the middle of talks about budget, and about deficits, and about 
the long-term sustainability of our debt. Can you talk about 
what this would do in terms of bringing down our debt?
    Secretary Duncan. These are the CBO's numbers, not mine, 
and CBO, as you know, is nonpartisan. Their numbers are very 
simple. They estimate that if the DREAM Act would pass, it 
would generate $1.4 billion more in revenue----
    Senator Franken. Trillion.
    Secretary Duncan. Billion, $1.4 billion more in revenue 
than it would add in costs over the next decade. So this is a 
deficit reducer.
    Senator Franken. I am sorry, $1.4 trillion is the amount of 
income they would have, but $1.4 billion----
    Secretary Duncan. That is the deficit reduction. The $1.4 
trillion, that is the bottom number in terms of income. It was 
a range between $1.4 trillion and $3.6 trillion. So these are 
huge numbers. And, again, you know all the buying power, 
purchasing power, and what that would mean for our country to 
have that happening rather than, again, a bunch of people 
working for peanuts under the table.
    Senator Franken. Thank you very much.
    Thank you, Mr. Chairman.
    Senator Durbin. Thank you, Senator Franken.
    Senator Grassley.
    Senator Grassley. In light of the figures that were just 
given, I have to ask--based upon what the Congressional Budget 
Office assessed a version of the DREAM Act this past December--
so I am going to ask Secretary Napolitano: Their estimate of a 
$5 billion increase to the deficit, while a huge burden, does 
not come close, in my opinion, to the actual cost of 
implementation of the bill, so a simple question to you: What 
is the Department's estimate of the implementation of this 
bill? And where will the money come from?
    Secretary Napolitano. Well, we think we could handle the 
implementation of this bill in CIS, and if I am not mistaken, I 
believe there is also a fee mechanism in the bill as well, as 
there are for many of the citizenship programs that we 
administer. This is a budget-neutral bill, in other words.
    Senator Grassley. Okay. So your opinion is a lot different 
than what the Congressional Budget Office had.
    Let me go on to another point. On May 10, 2011, President 
Obama addressed an El Paso, Texas, crowd on immigration. In 
that speech he stated, ``And sometimes when I talk to 
immigration advocates, they wish I could just bypass Congress 
and change the law myself. But that is not how our democracy 
works.''
    On June 17th, a memo was released giving ICE officers, 
agents, and attorneys prosecutorial discretion, for instance, 
as involving undocumented immigrants on a case-by-case basis. 
Does this change in course reflect an administrative bypass of 
Congress?
    Secretary Napolitano. I believe, Senator Grassley, you are 
referring to the memo from the ICE Director to the field?
    Senator Grassley. Yes.
    Secretary Napolitano. Okay. No, it does not bypass Congress 
at all. It recognizes that we have sworn to uphold the existing 
immigration law, which we will. But we are in essence in many 
respects a prosecution office, and prosecution offices have 
priorities. The Department of Justice, the United States 
Attorneys offices have priorities. There is the U.S. Attorney's 
manual that governs priorities. It is about allocating 
properly, and with the public safety of the country number one 
in mind, the resources that we are given by the Congress.
    Senator Grassley. Secretary Napolitano, again, if the 
Congress fails to enact a version of the DREAM Act, will the 
President and/or the Department bypass Congress and implement 
it administratively? Can you give this Committee assurances a 
mass amnesty will not be done administratively under President 
Obama?
    Secretary Napolitano. Yes, and the President has been very 
firm on this. In meeting with groups that very much want him to 
accomplish a DREAM Act administratively, he has said no. This 
is for the Congress to debate and to decide. But what is within 
the Executive prerogative is to set prosecution priorities, 
which is what we have done.
    Senator Grassley. You used the words ``prosecution 
priorities.'' I was asking about would there be any mass 
amnesty done.
    Secretary Napolitano. Perhaps we are just thinking about 
the same thing and using different words. There is no mass 
amnesty here.
    Senator Grassley. Okay. Are you aware of any discussions 
within the Department to extend deferred action or humanitarian 
parole on a categorical basis such as those who would benefit 
under the DREAM Act?
    Secretary Napolitano. I am aware that there were some 
lower-level discussions, but the policy of the Department is 
that there can be no categorical amnesty, and there will not 
be, which is why the Congress needs to act. There is some 
urgency here with these young people.
    Senator Grassley. Would you be willing to give the 
Committee notification of every instance the Department grants 
deferred action to a DREAM Act-eligible person so that we know 
that you are truly doing this on a case-by-case basis?
    Secretary Napolitano. We would be willing to discuss that 
with you, a process for that, yes.
    Senator Grassley. We have had so much correspondence here 
over the last year on this issue. I am not sure we have not 
already asked you that, so I am not sure I want to discuss it 
anymore.
    Secretary Napolitano. Senator, we have had an awful lot of 
correspondence with the Committee on various issues, but I 
think the point of the question is would we agree to some 
oversight of how the deferred action process is being 
administered, and the answer is we want to be very transparent 
about how we are exercising the authorities the statutes give 
us.
    Senator Grassley. Okay. In response to the discretionary 
memo of June 23, 2011, Chris Crane, president of the National 
ICE Council, stated, ``Any American concerned about immigration 
needs to brace themselves for what is coming. This is just one 
of many new ICE policies aimed at stopping the enforcement of 
U.S. immigration laws in the United States. Unable to pass its 
immigration agenda through legislation, the administration is 
now implementing it through agency policy.''
    I would like to have you rebut this assertion that the 
Department is bypassing Congress.
    Secretary Napolitano. I think it could not be more wrong, 
and I do not know where he gets his information, but the 
enforcement record of this administration is unparalleled. We 
have enforced the law. We have improved the removal of criminal 
aliens. We have removed more people from the country. And we 
get criticized for that. In fact, I suspect we have been 
criticized by some of the people attending in this room in 
support of the DREAM Act. But it is our belief that enforcement 
of the immigration law is very important, and must be done 
smartly intelligently, effectively, and fairly.
    We also believe, however, that the DREAM Act-eligible 
students or applicants for the military are not those against 
whom the full force of the immigration law and removal from the 
country is appropriate. That is why we believe that Congress 
should address this and provide a legislative fix for this 
problem.
    Senator Grassley. Unrelated to the DREAM Act, because I 
promised--I am not going to ask you a question for answer 
orally, but I would like to have an answer in writing. This is 
because I promised the Brian Terry family that every time I got 
an opportunity to ask somebody that had anything to do with 
Fast and Furious or immigration, I would ask this question.
    Last week Chairman Issa and I sent a letter regarding your 
Department's involvement in that. It is a follow-up letter that 
I sent in March that Customs and Border Protection refused to 
answer. I would like to have you give a complete and thorough, 
timely response to that letter. In addition to what is in that 
letter, I would like to ask you to comment, not now but in 
writing. The U.S. Attorney in Arizona, Dennis Burke, is your 
former chief of staff. Have you had any communications with him 
about Operation Fast and Furious or about Agent Terry's death 
at the time? And if so, I would like to have you describe that 
communication.
    [The information appears as a submission for the record.]
    Senator Grassley. Now, I have got an opportunity for one 
more question. The legislation broadly allows the Secretary to 
set forth the manner in which those seeking benefits under the 
DREAM Act to apply. This concerns me. One requirement is the 
undocumented person must initially enter the U.S. before the 
age of 16. As you know, many countries do not keep accurate 
records of birth, and fraudulent documents are rampant. What 
documents would you require to determine age? And how will you 
determine when the undocumented person actually entered the 
United States? And what steps will you take to ensure this 
legislation does not exacerbate the black market for fraudulent 
documents?
    Secretary Napolitano. We will obviously take up 
administratively, but one of the things we have done in the 
last 2 years is greatly increase our anti-fraud efforts in the 
entire immigration benefit process. So, for example, we now 
have anti-fraud officers in all of 184 field offices. We have 
special anti-fraud units that are in some of the highest-use 
offices. We have a lot better way of checking records and 
verifying records, in part because of the greater use of 
biometrics, biometric passports and the like.
    So we have a number of different ways to address that 
particular issue to make sure that the DREAM Act is not used as 
a vehicle for fraud.
    Senator Grassley. Thank you, Mr. Chairman. Thank you, Madam 
Secretary.
    Senator Durbin. Thank you very much, Senator Grassley.
    I know Senator Blumenthal was trying to join us, so if he 
arrives in a minute or two, I am going to give him a chance to 
ask questions.
    At the end of the hearing, I am going to be entering into 
the record 141 statements of support for the DREAM Act, and I 
would like to just say to this panel, because we have had a 
number of questions related to the impact of the DREAM Act on 
education, and I want to make it clear that we have statements 
of endorsement of this legislation from a long, long list of 
colleges and universities across the United States, including 
the American Association of Community Colleges, the American 
Association of State Colleges and Universities, the American 
Council of Education, the Association of Jesuit Colleges--the 
list goes on and on. If these organizations thought the DREAM 
Act was a threat to the future of education, they certainly 
would not endorse it. They have, and we are honored to have 
their support.
    I am also happy to have the support of so many different 
religious organizations who have weighed in on behalf of this, 
from Christian and Jewish and different organizations including 
the Association of Catholic Colleges, the National Association 
of Evangelicals, the Southern Baptist Convention. It is just a 
broad array of people who are supporting this in principle.
    Senator Blumenthal cannot make it in time, so I am going to 
thank this panel for their testimony. We appreciate so much 
your being here. There may be some written questions coming 
from other Members of the Committee, and I hope you can respond 
to them in a timely way. I appreciate very much your testimony. 
Thank you.
    Senator Durbin. I am now going to invite the second panel 
to come before us, and as they do, I am going to read their 
introductions in the interest of time.
    Our first testimony is going to come from Ola Kaso, who is 
sitting down at the table now. We welcome you. We have a 
statement from Senator Carl Levin, who was honored to bring her 
to this hearing this morning. He called me because he was so 
excited about her testimony. He is stuck in another Committee 
hearing, but strongly supports the DREAM Act and is standing 
behind Ola Kaso's testimony. She graduated from high school in 
Warren, Michigan, earlier this month with a 4.4 grade point 
average. She is enrolled in the honors program at the 
University of Michigan, where she will be a pre-med student.
    Senator Carl Levin is a cosponsor and strong supporter of 
the DREAM Act, as I mentioned. Earlier this year he intervened 
with the Department of Homeland Security to stop Ms. Kaso's 
deportation. Senator Levin submitted a statement for the 
record, and here is what it says:
    ``We need for Ola Kaso to be able to stay in this country. 
We need her and the people like her in our communities and our 
schools and universities and our businesses. This is a matter 
not of Democrats and Republicans, left and right, but of right 
and wrong, and I encourage this Subcommittee and my colleagues 
in the Senate to embrace Ola Kaso and young Americans like her 
who will make our country stronger, if only we allow them to.''
    Ms. Kaso, thank you for being here today, fresh out of your 
high school graduation, and we would like to give you a chance 
now to make an opening statement.

            STATEMENT OF OLA KASO, WARREN, MICHIGAN

    Ms. Kaso. Thank you. Chairman Durbin and Members of the 
Subcommittee, thank you for the opportunity to submit this 
testimony.
    I was 5 years old, but I remember it like it was yesterday. 
Apprehensively, I teetered into the perplexing classroom. 
Students spoke in a language completely foreign to me. The 
teacher, too, spoke and pointed a certain direction. What did 
she want me to do? Where did she want me to go? I stood there, 
frozen still and silent like a statue. The children stared and 
they laughed. After a week of my unremitting silence, I was 
directed into the principal's office. My mother was there, too, 
seated to the right of the translator that had helped her 
enroll me in school. The teacher spoke, and the translator 
began speaking too.
    ``She says Ola might need special attention. She barely 
socializes with the other kids and she is not learning 
anything. She suggests that Ola be taken out of the general 
class and be placed into the ELL program so she can get the 
extra assistance she needs.''
    I have come a long way since that day 13 years ago. I have 
become proficient in the English language, and I have excelled 
in my studies.
    Since the third grade, I have been placed in advanced 
programs, all of which I have fully utilized. I have taken 
every Advanced Placement course my high school has offered, and 
I have earned a 4.4 GPA doing so. I earned a 30 on my ACT with 
English being my highest score. In high school I was a varsity 
athlete. I ran cross country in the fall, and I played tennis 
in the spring. I was the treasurer of the Student Council, and 
I was the treasurer of the National Honor Society at my school. 
Furthermore, I tutor students that are still struggling to 
become proficient in English, and I have received numerous 
scholarship offers, and I have been accepted to several 
universities.
    I commit countless hours to community service and charity 
events because I feel that big change comes through little 
steps. I juggle all my school work, after-school activities, 
and community service projects while also having a job. I have 
completely immersed myself within the American culture, of 
which I so strongly desire to become a citizen.
    I am currently enrolled at the University of Michigan, one 
of the most prestigious public universities in the Nation, 
where this fall I will be majoring in brain, behavioral, and 
cognitive science with a concentration in pre-med.
    I ultimately aspire to become a surgical oncologist, but 
more importantly, despite seemingly endless obstacles, I intend 
to work for patients that cannot afford the astronomical fees 
accompanying life-saving surgeries, patients that are denied 
the medical treatment they deserve. My goal is not to increase 
my bank account; my goal is to decrease the amount of 
preventable deaths. How can I go to a lucrative job every day 
knowing that there are mothers wasting away in front of their 
children because they cannot afford surgery? I cannot and I 
will not. I wish to remain in this country to make a 
difference. I wish to remain in this country to help American 
citizens.
    On March 28th, I was spontaneously told that I would be 
deported in less than a week despite the fact that my family 
has complied with all immigration laws for the last 13 years. I 
was 2 months short of obtaining my high school diploma. I was 
shocked. How could I be sent to a place I did not even 
remember, a culture that is completely foreign to me? I am not 
even fluent in Albanian, so if I were to be sent back, I could 
not pursue a college education. My hard work, my dreams, and my 
future were at risk of being eradicated. I have considered one 
country, and one country only, to be my home. America is my 
home, not Albania.
    My community rallied behind me. They asked for my 
deportation to be suspended, and the Department of Homeland 
Security responded and granted me deferred action for 1 year so 
I can continue my studies.
    My family came here legally, and we followed the law every 
step of the way. Despite my compliance with the law, there is 
no way I can obtain citizenship under the current law; despite 
all my hard work and contributions, I face removal from the 
only country I have ever considered home. Despite my 
aspirations and good intentions for my country, I face 
deportation in less than a year.
    I am a DREAM Act student. I was brought to this country 
when I was 5 years old. I grew up here. I am an American at 
heart.
    There are thousands of other Dreamers just like me. Look 
around the room and you will see hundreds of them today. All we 
are asking for is a chance to contribute to the country that we 
love. Please support the DREAM Act.
    Thank you again for the opportunity to testify today on 
behalf of all of the Dreamers.
    [The prepared statement of Ola Kaso appears as a submission 
for the record.]
    Senator Durbin. Ola, thank you. You were speaking for 
thousands just like you all across America, and you were very 
effective. Thank you for doing that.
    Our next witness is Margaret Stock, a retired Lieutenant 
Colonel in the U.S. Army Reserve. Lieutenant Colonel Stock is 
counsel at the law firm of Lane Powell. Previously, she was a 
professor at the U.S. Military Academy at West Point, a partner 
at the law firm of Stock and Mueller and an associate at the 
law firm of Atkinson, Conway & Gagnon. Lieutenant Colonel Stock 
received a bachelor's from Harvard and Radcliffe Colleges, a 
J.D. from Harvard Law School, a master's in public affairs from 
Harvard's Kennedy School of Government, and a master's of 
strategic studies from the U.S. Army War College.
    Lieutenant Colonel Stock, we look forward to your 
testimony.

 STATEMENT OF LIEUTENANT COLONEL MARGARET D. STOCK, U.S. ARMY 
              RESERVE, RETIRED, ANCHORAGE, ALASKA

    Ms. Stock. Thank you, Senator Durbin. I appreciate the 
opportunity to testify before you today regarding the DREAM 
Act.
    In addition to the qualifications that you mentioned, I 
earlier heard a question from Senator Cornyn regarding the 
MAVNI Program, and I would like to mention that I was the 
original project officer for the MAVNI program under the Bush 
administration, so I am prepared to answer questions about that 
issue, although that is not the subject of the hearing today.
    I would also like to mention that among my professional 
affiliations I have membership in the American Bar Association 
where I am a commissioner of the Commission on Immigration, the 
American Immigration Lawyers Association, the Federalist 
Society for Law and Public Policy, and the Republican National 
Lawyers Association. I am mentioning those only to reveal my 
potential biases at this hearing.
    Over the years, as an attorney I have represented hundreds 
of businesses, immigrants, and citizens who seek to navigate 
the difficult maze of U.S. immigration law, and I am prepared 
at this hearing to address some of the specific questions that 
Senator Cornyn and others raised earlier about, for example, 
the effect of the provision in the new version of the DREAM Act 
with regard to good moral character, from which there is no 
waiver authority granted to the Secretary of the Department of 
Homeland Security. So I would like to mention that I would like 
to address that later.
    I am honored to be appearing before you this morning to 
discuss the DREAM Act because the DREAM Act is essential to our 
national security, our economy, and it is necessary to end the 
colossal waste of human talent that is going on right now with 
the status of these American-educated young people.
    The DREAM Act is part of a comprehensive solution to our 
Nation's immigration problems, but as others have noted, it is 
perfectly reasonable to pass it as a stand-alone bill, and I 
applaud you for holding a hearing to address that issue in 
hopes that this can be passed.
    As the Council on Foreign Relations Independent Task Force 
on U.S. Immigration Policy explained recently--and I also 
should reveal that I served on that task force under Jeb Bush 
and Mack McLarty--the Independent Task Force endorsed the DREAM 
Act saying, ``The DREAM Act is no amnesty. It offers to young 
people who had no responsibility for their parents' initial 
decision to bring them into the United States the opportunity 
to earn their way to remain here.'' And more particularly, the 
DREAM Act will enhance America's ability to obtain future high-
quality recruits for the United States Armed Forces.
    The reality of our Nation's broken immigration system has 
been that we now have in the United States today a very large 
population of persons who have no means of obtaining lawful 
permanent residence here, even if they have lived in America 
for decades, gone to school here, paid their taxes, and 
committed no crimes. Many of these individuals are legally in 
the U.S. in some status that falls short of lawful permanent 
residence, but some 12 million are unauthorized, including an 
estimated 2.1 million youth and young adults.
    Despite the fact that many of these undocumented young 
people have grown up in the U.S., attended our schools, and 
demonstrated a sustained commitment to this country by learning 
English and succeeding in our educational system, U.S. 
immigration laws provide no avenue for them to obtain any legal 
status.
    The DREAM Act would allow those young people who have grown 
up in this country, graduated from high school, been 
acculturated as Americans, and have no serious criminal record 
and meet the good moral character requirements to go to college 
or serve in the military and thereby legalize their immigration 
status.
    Those who oppose the DREAM Act often mistakenly repeat the 
popular misconception that these young people should just ``get 
in line like everyone else.'' But without the DREAM Act, there 
is no line for them to stand in.
    The inability of this large group of young people to obtain 
any legal status has far-ranging social and economic impacts, 
not least of which is an obvious impact on the qualified 
manpower available for the U.S. Armed Forces. Currently, 
unauthorized young people are barred from enlisting in the U.S. 
military. And I would just note for the record that the 
suggestion that the Department of Defense should be hiring 
undocumented persons who are not authorized to work in the 
United States is interesting in light of the fact that every 
other U.S. employer is barred from employing people who are not 
authorized to work in the United States.
    Persons lacking familiarity with today's enlistment process 
might believe it is possible for the services to enlist 
undocumented immigrants, but in reality the services do not 
have the legal or administrative authority to enlist somebody 
who has no record with the Department of Homeland Security and 
is not authorized to work in the United States and who has no 
valid Social Security number. So the services cannot use their 
10 United States Code 504 enlistment authority to enlist 
undocumented immigrants.
    In contrast, the Department of Homeland Security has the 
institutional expertise and processing systems required to take 
applications from unauthorized immigrants, fingerprint them, 
collect their filing fees, vet them against complex 
inadmissibility and removability criteria, create ``alien 
files'' on them, assign them alien numbers, and otherwise 
process them for conditional permanent residence status. And 
under the DREAM Act, this process will happen before these 
young people appear at a recruiting station and try to enlist. 
So they will be legal when they approach a military recruiter. 
The Department of Defense will not be in the position of trying 
to hire people who are unauthorized to work.
    The DHS process will be a first gate to screen out persons 
who are unsuitable for military service as a result of having 
serious criminal or immigration violations or who lack good 
moral character. And the DREAM Act appropriately assigns to DHS 
the role of accepting these applications and conducting this 
immigration law vetting before any of them are given the 
conditional lawful residence status.
    Under the DREAM Act, all DREAM Act beneficiaries who 
attempt to enlist will have conditional lawful permanent 
residence, a status that is already recognized in existing 
enlistment statutes and military regulations. Some people have 
suggested that the Department of Defense create a ``military 
only'' DREAM Act, but such a program would present a greater 
security risk to DOD, would flood military recruiters with 
unqualified applicants for enlistment, and would require 
significant changes in military enlistment regulations and 
recruiting resources. A ``military only'' DREAM Act would also 
contradict the fundamental premise of the all-volunteer force, 
as many DREAM Act beneficiaries would be motivated to join the 
military out of a desperate desire to legalize their status and 
not because they are truly interested in military service.
    It is important to note--and other witnesses stated this 
earlier--that DREAM Act beneficiaries will have the same 
statutory or contractual enlistment obligations as all other 
military personnel. The only difference is that they will be 
unable to naturalize through military service until they have 
lifted the conditions on their lawful permanent residence 
status, a process that is likely to take about 7 years in most 
cases. So they will not be eligible to become citizens 
immediately under military naturalization statutes.
    Some have opined that the DREAM Act is unnecessary because 
the Armed Forces are currently meeting their enlistment goals, 
but this is also a misinformed opinion. The current beneficial 
recruiting environment is a direct result of the poor state of 
the United States economy. As the U.S. economy recovers from 
the current recession and our population continues to age, the 
Armed Forces will face a very difficult recruiting climate.
    Now, we know that DREAM Act beneficiaries are going to help 
meet our Nation's future need for individuals who are highly 
qualified and are interested in joining the Armed Forces 
because this population highly propensed to serve. I want to 
mention not only the fact that the DREAM Act creates a strong 
incentive for military service, but that past DOD studies have 
shown that this particular population comes from a demographic 
group that is already heavily predisposed to military service.
    A 2004 survey by the Rand Corporation found that 45 percent 
of Hispanic males and 31 percent of Hispanic females between 
ages 16 and 21 were very likely to serve in the U.S. Armed 
Forces compared to 24 percent of white men and 10 percent of 
white women.
    Senator Durbin. Colonel Stock, I am sorry. We have a vote 
in just a few moment, and I want to make sure we can wrap up 
this Committee hearing. So if you could conclude, I would 
appreciate it.
    Ms. Stock. Absolutely.
    As mentioned above, Senator, I am a member of the retired 
Reserve of the U.S. Army Reserve, and I served in the U.S. Army 
Reserve for 28 years. During that time I learned of many 
undocumented immigrants who wanted to serve America by joining 
the all-volunteer force. I often had the unpleasant task of 
explaining to these eager, patriotic, and energetic young 
people that they were barred from enlisting because of their 
lack of legal status.
    I also talked to many military members who were trying to 
get promising young people to enlist. They would approach me, 
and I would have to give them the same bad news. And over and 
over again I would hear the comment, ``Ma'am, this makes no 
sense. All they want to do is serve the United States. Why 
don't we let them?''
    In my written testimony, I have given you anecdotes from 
several of our Junior ROTC instructors who were in public 
schools in America that have large numbers of undocumented 
people in them. These anecdotes illustrate the propensity of 
these young people to serve America and the propensity of these 
young people to perform well through military service.
    It makes little sense to deport these American-educated 
youth. It is expensive to locate, arrest, imprison, and deport 
them. The DREAM Act would help to fix our dysfunctional 
immigration system. It is good for our national security, and 
it is good for our economy. Pass the DREAM Act and let these 
promising young people serve America.
    Thank you.
    [The prepared statement of Margaret D. Stock appears as a 
submission for the record.]
    Senator Durbin. Thank you, Colonel Stock.
    Dr. Camarota is the director of research for the Center for 
Immigration Studies, holds a Ph.D. from the University of 
Virginia in public policy analysis and a master's degree in 
political science from the University of Pennsylvania.
    Dr. Camarota, thanks for being here today. The floor is 
yours.

        STATEMENT OF STEVEN A. CAMAROTA, PH.D., DIRECTOR
          OF RESEARCH, CENTER FOR IMMIGRATION STUDIES,
                         WASHINGTON, DC

    Mr. Camarota. I would like to thank the Committee for 
inviting me to speak here today.
    The recently introduced or reintroduced DREAM Act attempts 
to deal with one of the more vexing issues in immigration. The 
Act offers permanent legal status to illegal immigrants, up to 
age 35, who arrived in the United States before age 16. These 
individuals are one of the most compelling groups of illegal 
immigrants because in almost every case their parents are to 
blame for their situation, not them.
    However, as currently written, the law has a number of 
significant problems. In my oral testimony I will highlight 
four main problems, and I will suggest possible solutions. My 
written testimony has a more extensive list.
    First, there is the issue of cost. The DREAM Act requires 2 
years of college but no degree is necessary. Given the low 
income of illegal immigrants, most can be expected to attend 
State- and county-supported colleges. Not including illegal 
immigrants already enrolled, the cost to taxpayers in tuition 
subsidies for these State-supported schools for the roughly 1 
million students we think will attend is about $12 billion for 
the State schools and the community colleges.
    In addition to the cost to taxpayers, there is the related 
issue of crowding-out U.S. citizens and legal immigrants in 
these public institutions that are already reeling from budget 
cuts at the State and local level. It is important to remember 
that the illegal immigrant population is concentrated in only 
about a dozen States, and enrollment slots are not unlimited in 
those States. There is a limit to how many people can attend, 
at least in the short term.
    Now, advocates of the DREAM Act argue that it will 
significantly increase tax revenue because once they have a 
college education recipients will earn more and pay more in 
taxes. Whether that is true or not, it is important to 
understand that any hoped-for tax benefit will come only in the 
long term and will not help public institutions deal with the 
large influx of students the Act creates in a relatively short 
period of time.
    Further Census Bureau data show that the income gains for 
having some college, but no degree of any kind, are quite 
modest. So the resulting income gains in tax revenue will be 
small, at least as currently written.
    Now, one way to deal with this situation is for Congress 
simply to provide additional funds to State universities and 
community colleges. If the idea behind the DREAM Act has 
merit--which I think it does--then acknowledging these costs 
and being honest with the public and including these costs in 
the law is clearly necessary.
    Now, a second major issue with the bill is that any 
legalization for illegal immigrants unavoidably encourages more 
illegal immigration. We have seen that in the past, and that is 
always an issue.
    Now, the best remedy would be to include some important 
enforcement mechanisms in the law, such as full implementation 
of the US-VISIT program, which tracks the arrival and departure 
of visitors to our country. Also including mandatory e-Verify, 
which verifies the legal status of workers would make sense. A 
more rapid implementation of the Secure Communities program and 
adding funding for the 287g program--Secure Communities and 
287g, as you all know, deals with criminal aliens. If we take 
these simple steps, we can help discourage future illegal 
immigration.
    Now, a third issue with the Act is that it is an invitation 
to fraud in many ways. First off, the confidentiality means 
that if somebody commits fraud, the bureaucracy is in kind of a 
box because they cannot use the information that they learn in 
the application process against that individual, as I read the 
Act. Also, the Act does not have a clear list of documents that 
will be acceptable for identification. This happened also in 
1986 in the IRCA amnesty. Most estimates show that about 
700,000 illegal immigrants who were not qualified for that 
legalization got legalization because at the time the 
bureaucracy was overwhelmed, as it is now. There was no clear 
list of documents. They could not do all the investigations. We 
are setting ourselves up for a repeat of that situation.
    The most obvious way to fix this problem is to give the 
immigration bureaucracy a lot more money, let it hire the staff 
and train up, so it could process all these applications, also 
change the fraud situation. If somebody provides fraudulent 
information, you have to be able to use the information in the 
application against that person, so you can go to the address, 
for example, that they might give you.
    Now, the fourth problem--and I will just touch on it--with 
the DREAM Act is that a person convicted of two serious 
misdemeanors could still qualify. We have heard a lot of talk 
about this, and we know that some misdemeanors are pretty 
serious. There is a very simple solution. Just put in the law 
that people convicted of drunk driving or a sexual offense or a 
violent offense, even if it is a misdemeanor, are ineligible. 
It is a pretty obvious and quick thing to do, and I think it 
would reassure the public.
    In conclusion, while illegal immigrants raised in the 
United States do not have a right to stay in our country, they 
certainly have a claim on our conscience. We should act on that 
claim. But we should do so in a manner that limits unintended 
consequences.
    Thank you.
    [The prepared statement of Steven A. Camarota appears as a 
submission for the record.]
    Senator Durbin. Thank you, Dr. Camarota.
    In 2007, when I was bringing the DREAM Act up, you were 
interviewed by C-SPAN, and you said something a little 
different than your testimony today. You said, ``Children pay 
the penalty for their parents' misdeeds. If a parent does not 
pay the mortgage and the house gets foreclosed, sometimes the 
children suffer. We incarcerate hundreds of thousands of 
parents each year and deprive those children of their 
parents.''
    Then when I brought several Dreamers to a press conference 
which I had, you also said, ``U.S. Congressmen should not be 
harboring and giving a podium to people who knowingly and 
willfully violate our laws. I hope they would not do it with 
tax cheats, I hope they would not do it with robbers, and I 
hope they would not do it with illegal aliens.''
    You have given a much more moderate statement today. Have 
you had a change of heart?
    Mr. Camarota. Well, I certainly agree with the second part 
completely. I do not think that you should give a podium to 
people who are in our country illegally, just like I do not 
think you should give a podium to anyone who is currently and 
admittedly violating our law. Now, that is my opinion. You are 
the Senator. You will ultimately make that determination.
    On the question of whether children pay the penalty for 
their parents' misdeeds is undoubtedly true, both 
philosophically and just as a matter of fact. Bad parents abuse 
their children. Bad parents do all kinds of things. In this 
case it is the bad act of the parent that is causing injury to 
the child.
    But I never said that I was completely opposed to the idea 
of the DREAM Act. I am not completely opposed.
    Senator Durbin. So when you talk about educational costs, 
we talked about that earlier, and it appears that there are 
some people who disagree with you--the Secretary of Education 
as well as the Association of Colleges and Universities and a 
long, long list of schools who do not believe the DREAM Act 
would be a burden but, rather, an opportunity.
    I might also add that among those hundreds who are here 
today are many who are going to school right now, paying out of 
their own pockets to go to school. So to think that this is a 
possibility of 50,000 new students arriving on the scene, many 
of them are already making extraordinary sacrifices to go to 
school. They are enrolled currently. So how do you respond to 
that?
    Mr. Camarota. I think you misunderstood me. The CBO 
estimate, as I understand it, dealt with the Federal budget, 
and we could talk about that and whether it is right or wrong. 
But we are talking here about costs at the State and local 
level only. And so most people, the average subsidy for a State 
school is, like $12,000. For a community college it is a few 
thousand. I assume in my research that about 80 percent of 
DREAM Act recipients would go to community college, which is a 
lot cheaper. Now, if they go to State school, it will be a lot 
more, but I do not think that is what is going to happen.
    On the question of whether it is a burden because there are 
already people here, we think that about 60,000 students 
currently attend in-State school at in-State prices who are 
here illegally based on some research. Your bill is looking to 
add about a million people to that system, 500,000 of whom, 
given their age and soon graduation or have already graduated, 
about half a million, like I said, 500,000, will be enrolling 
in a very short time. That is why I would urge you to provide 
the billions of dollars necessary for these schools to take in 
those kids.
    Senator Durbin. So you would disagree with the conclusion 
of the Secretary of Education that ultimately America will be a 
stronger Nation once these students have graduated from school 
and are taxpaying citizens, providing assistance for their 
children and for other families? You disagree with that 
conclusion?
    Mr. Camarota. Well, let us be clear. It only requires 2 
years of college. The income gains for 2 years of college is 
not very great if you do not get any degree. So maybe if you 
wanted to ensure you could have it so that it gets a degree, 
and I cite the research on how much income gains you would get. 
But the bigger question is if you hope that this will be a tax 
gain for the taxpayers--let us assume that this is a good deal 
for taxpayers--that is in the long run. You are still looking 
at adding hundreds of thousands of new students who are 
currently not enrolled to say our community college system in 
only about 12 States.
    So if you think it is going to be a benefit in the long 
run--and that is a fascinating and interesting discussion we 
could have. But if you think that is the case, provide the 
money to these schools so there is not this crush given the 
limited resources.
    Senator Durbin. It sounds very rational and logical, but 
for one important fact. Even the State of Texas has decided 
that these students will be given in-State tuition. They have 
decided these students are worth keeping in Texas. We think 
they are worth keeping in America. And so every State should be 
offering at least an opportunity for them. So this notion that 
somehow these are just a drain on the system, I just do not buy 
your premise on that.
    One last point. Colonel Stock, I want to get back to the 
point that Dr. Camarota raised again. I think the ultimate test 
of these students is going to be the question of good moral 
character and whether or not we specify which misdemeanors are 
acceptable, which are not, it comes down to that final--as 
Secretary Napolitano said--evaluation of their total life 
experience as to whether or not they ultimately will have a 
chance.
    Do you see this the same way, that this is the last stop in 
the most important comprehensive look at their lives?
    Ms. Stock. I do not see it the same way as Dr. Camarota, 
Senator Durbin, because I have a background in immigration law, 
and I know what good moral character means. And I know that you 
have put that in the law, and you have not provided the 
opportunity for the Secretary to waive that requirement. She 
has no ability to waive that.
    I believe that some people may be unfamiliar with the 
Immigration and Nationality Act Section 101(f), which provides 
a statutory bar to showing good moral character for certain 
offenses, and there is a laundry list of those offenses. Any 
person who has committed any violation of the law that would 
bar good moral character under 101(f) would be barred from 
applying for DREAM Act benefits.
    So this business of, well, we have to name the specific 
offenses, I think the Immigration and Nationality Act provides 
an answer to that, which is simply that this good moral 
character requirement is a nice, neat way to encapsulate a 
whole bunch of offenses, including every single one that 
Senator Cornyn mentioned earlier before he had to leave the 
hearing.
    So I think this is a red herring that is distracting us 
from the actual necessity to solve our Nation's problem here, 
which is this colossal waste of educated person power that is 
going on here.
    Senator Durbin. Thank you.
    Senator Franken.
    Senator Franken. Since Senator Blumenthal was not able to 
ask questions of the first panel, I would like to give him the 
opportunity to speak and ask questions.
    Senator Blumenthal. Thank you. I really appreciate that, 
Senator Franken, and I will not take the full time.
    I just want to thank Senator Durbin for his very passionate 
and persevering commitment to this cause. As a new United 
States Senator, I want to join him in his strong advocacy for 
this measure. We have just given a face to it in Connecticut 
with a young man named Mariano Cardoso, who was brought to this 
country when he was 22 months old. He just graduated from 
community college. He is 23 now, and he is going to be a civil 
engineer in Connecticut. He has had the courage to become a 
face and a voice for this measure, and it takes real courage to 
do it, and I want to thank whoever is here today to join us, 
because many of them across the country I think have been the 
most effective advocates for this cause. When people see the 
young people who are actually involved, they really put aside 
all of the--excuse me, all of the somewhat more abstract points 
in favor, some against, because they are such an enormous 
potential asset to this country, as Senator Durbin and Senator 
Franken have expressed so powerfully in what they have said so 
far.
    So I just want to join the advocates who are here today in 
this cause and say to the folks who have come to testify and to 
be here today, thank you for enlightening us further. And I 
know we have a vote, so I am going to defer to Senator Franken, 
if I may, Mr. Chairman.
    Senator Franken. Thank you, Senator, and I associate myself 
with all your remarks.
    Ms. Kaso, I think you are very brave to be here, and I 
thank you for being here. Let me ask you a question. Did you 
make the decision to come to the United States? Was it you?
    Ms. Kaso. I did not, no.
    Senator Franken. Okay. How old were you when you came to 
the United States?
    Ms. Kaso. I was 5 years old.
    Senator Franken. I was 4 when I came to Minnesota. I 
consider myself a Minnesotan, but I had a year on you there. 
But you consider yourself an American, right?
    [Laughter.]
    Ms. Kaso. Yes.
    Senator Franken. Okay, great. Now, tell me again what you 
want to do for a living. It sounded like you wanted to be a 
doctor.
    Ms. Kaso. A surgical oncologist. I want to remove cancer 
tumors.
    Senator Franken. Okay. And you want to be able to help 
people who cannot afford health care?
    Ms. Kaso. That is correct, yes.
    Senator Franken. Okay. Well, hopefully we will have taken 
care of that, too.
    [Laughter.]
    Senator Franken. Thank you for being here.
    Ms. Kaso. Thank you for the opportunity.
    Senator Franken. Lieutenant Colonel Stock, let me just ask 
you this: I talked about doing USO tours before. During 2005 
and 2006, you talked in your testimony about how right now we 
are able to be in a recruiting--okay, I guess I have to go to 
vote, but what I am going to do is ask a question, and then I 
am going to leave, and you are going to answer to----
    Ms. Stock. Can I also answer your question about 
undocumented immigrants while you leave, too?
    Senator Franken. Yes, sure. Say anything you want after I 
leave.
    [Laughter.]
    Senator Franken. And I will hear it later. But what I know 
is that in 2005 and 2006 especially, we were not meeting our 
recruiting numbers, and we had moral waivers, right? And we had 
cognitive waivers. We really needed to be able to recruit. It 
would have been great to have this group of people to recruit, 
wouldn't it have?
    Ms. Stock. It would have absolutely been great. We would 
not have had to give morals waivers to some of the people who 
came into the service and later engaged in misbehavior.
    I would like to address the question regarding undocumented 
immigrants. I read occasionally that there are lots of these 
undocumented immigrants allegedly in the military. But, in 
fact, that is not the case. I know this because I work with the 
American Immigration Lawyers' Military Assistance Program, and 
the few undocumented immigrants who serve in the military come 
forward to that program often seeking help. And I can tell you, 
Senator Durbin, the outcome for these people is not rosy. 
Occasionally some of them are able to get United States 
citizenship through their military service, but in other cases, 
the outcome is not a pretty one, and I will just offer the 
example of a young man who was DREAM Act eligible, or would 
have been if the DREAM Act had been passed. He tried to join 
the U.S. Marine Corps a few months ago. He was processed by an 
unscrupulous recruiter and brought into the Marine Corps, 
whereupon, the Marine Corps turned him over to Immigration and 
Customs Enforcement and had him deported to Mexico when he 
reported for basic training. So this idea that there are lots 
of undocumented immigrants in the military is a misguided myth. 
The few that we have found in the military are people who have 
come in through the use of bad documents or by mistake, and 
most of them would be ineligible under the strict good moral 
character requirement that you have in the current version of 
the DREAM Act. They would not be eligible to get status through 
the DREAM Act.
    Senator Durbin. Thank you. As you can see, I have been 
abandoned by my colleagues who are off to vote, which I have to 
do myself in just a few moments. But, in conclusion, thank you 
to Dr. Camarota, Lieutenant Colonel Stock--and, Ola, how is 
your last name pronounced?
    Ms. Kaso. ``Kass-o.''
    Senator Durbin. So we all got it wrong. Ola Kaso, thank you 
so much for your great story, compelling story that you gave 
us.
    I am going to ask unanimous consent--and since there is no 
one here to object, I am going to get it--to enter into the 
record 141 statements of support for the DREAM Act included 
here, and I mentioned earlier the wide array of organizations 
that support this.
    I am discouraged that after 10 years this law has not 
passed, but I am not so discouraged as to give up the effort. I 
believe in all of you, and I want you to believe in this 
country. Sometimes it takes us a long time to get to the right 
conclusion and to reach fairness and justice. But we do get 
there. And those of you who are waiting patiently with your 
lives on hold and with real uncertainty, know I hope from some 
of the statements made by my colleagues today the deep feelings 
we have that this is a cause of justice and once that we are 
going to continue to pursue. Our day will come. This dream will 
come true.
    The Subcommittee stands adjourned.
    [Applause.]
    [Whereupon, at 12:18 p.m., the Subcommittee was adjourned.]
    [Additional material submitted for the record follows.]

                            A P P E N D I X

              Additional Material Submitted for the Record

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
